<html>
<title> - CBP WORKFORCE CHALLENGES: EXPLORING SOLUTIONS TO ADDRESS RECRUITMENT AND RETENTION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  CBP WORKFORCE CHALLENGES: EXPLORING 
             SOLUTIONS TO ADDRESS RECRUITMENT AND RETENTION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         OVERSIGHT, MANAGEMENT,
                           AND ACCOUNTABILITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2019

                               __________

                            Serial No. 116-5

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE                    
36-394 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d0d123d1e080e091518110d531e121053">[email&#160;protected]</a>                                  
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

              Xochitl Torres Small, New Mexico, Chairwoman
Dina Titus, Nevada                   Dan Crenshaw, Texas, Ranking 
Bonnie Watson Coleman, New Jersey        Member
Nanette Diaz Barragan, California    Clay Higgins, Louisiana
Bennie G. Thompson, Mississippi (ex  Van Taylor, Texas
    officio)                         Mike Rogers, Alabama (ex officio)
                Lisa Canini, Subcommittee Staff Director
            Katy Flynn, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Dan Crenshaw, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Oversight, 
  Management, and Accountability:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               WITNESSES
                                Panel I

Mr. Benjamine ``Carry'' Huffman, Acting Executive Assistant 
  Commissioner, Enterprise Services, U.S. Customs and Border 
  Protection:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     8
Mr. Rebecca Gambler, Director, Homeland Security and Justice 
  Team, Government Accountability Office:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Rodolfo Karisch, Chief Patrol Agent, Rio Grande Valley 
  Sector, U.S. Border Patrol:
  Oral Statement.................................................    23
  Joint Prepared Statement.......................................     8

                                Panel II

Mr. John B. Goodman, Chief Executive, Accenture Federal Services:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35
Mr. Anthony M. Reardon, President, The National Treasury 
  Employees Union:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38

                                APPENDIX

Questions From Chairwoman Xochitl Torres Small for Benjamine 
  ``Carry'' Huffman..............................................    55
Questions From Chairman Bennie G. Thompson for Benjamine 
  ``Carry'' Huffman..............................................    56
Questions From Honorable Dina Titus for Benjamine ``Carry'' 
  Huffman........................................................    57
Questions From Chairwoman Xochitl Torres Small for Rebecca 
  Gambler........................................................    57
Questions From Honorable Clay Higgins for Rodolfo Karisch........    58
Questions From Chairman Bennie G. Thompson for John B. Goodman...    58

 
 CBP WORKFORCE CHALLENGES: EXPLORING SOLUTIONS TO ADDRESS RECRUITMENT 
                             AND RETENTION

                              ----------                              


                        Thursday, March 7, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Oversight, Management, 
                                        and Accountability,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 310, Cannon House Office Building, Hon. Xochitl Torres 
Small [Chairwoman of the subcommittee] presiding.
    Present: Representatives Torres Small, Titus, Barragan, 
Crenshaw, Higgins, and Taylor.
    Ms. Torres Small. The Subcommittee on Oversight, 
Management, and Accountability will come to order. The 
subcommittee is meeting today to receive testimony on ``CBP 
Workforce Challenges: Exploring Solutions to Address 
Recruitment and Retention.''
    I want to thank all of our witnesses for being here today. 
I welcome the new Members of the subcommittee, including 
Ranking Member Dan Crenshaw.
    It is great to see you.
    I look forward to working with everyone here and everyone 
on the committee to conduct important oversight of the 
Department of Homeland Security. As a Member who represents a 
district on the Southern Border, I appreciate the opportunity 
to discuss the critical issue of recruitment, hiring, and 
retention at the U.S. Customs and Border Protection.
    CBP employs nearly 45,000 law enforcement personnel across 
three operational components: The Office of Field Operations, 
OFO; U.S. Border Patrol; and Air and Marine Operations. These 
personnel have the tremendously important mission of 
safeguarding our Nation's borders while facilitating lawful 
trade and travel.
    More specifically, they are responsible for preventing 
terrorists and terrorist weapons from entering the United 
States and preventing the illegal trafficking of people, 
narcotics, and contraband into the United States.
    At the same time, CBP personnel are charged with 
facilitating cross-border commerce that is the lifeblood of 
communities like mine and essential to our National economy, as 
well.
    However, critical law enforcement positions at CBP are 
currently vacant. In recent years CBP has been unable to 
achieve minimum staffing levels for its Border Patrol agent 
positions or its staffing goals for other law enforcement 
officer positions. The agency has acknowledged difficulties 
with its lengthy 12-step hiring process, which includes a 
medical exam and a polygraph. The time-to-hire is on average 
300 days, and less than 3 percent of applicants successfully 
complete the hiring process.
    Additionally, as a native of southern New Mexico, I know 
full well the challenges that CBP faces in attracting and 
retaining qualified personnel, particularly in remote areas 
where an employee's spouse may have trouble finding a job or 
children may have to travel to attend school.
    Further, being a CBP officer or Border Patrol agent is a 
demanding job that requires an extraordinary amount of 
dedication. Agents and officers often work long hours in 
difficult conditions.
    I look forward to hearing about possible solutions to 
workforce challenges, including nonfinancial and financial 
incentives. I welcome any ideas that witnesses or my colleagues 
have for attracting and retaining qualified applicants.
    I hope we can also discuss the lessons learned from CBP's 
hiring contract with Accenture Federal Services, and I 
understand there is a partial stop work order and changes are 
being made to the contract to focus on advertising, marketing, 
and developing innovative practices. I want to learn more about 
the innovative ideas being considered for reducing CBP's time-
to-hire and using data analytics to make recruitment more 
effective and efficient.
    I believe the recruiting, hiring, and retention problems 
can be solved if we work together to address them, and I look 
forward to continuing that effort today.
    Again, thank you to all of the witnesses for being here, 
and I look forward to your testimony.
    [The statement of Chairwoman Torres Small follows:]
              Statement of Chairwoman Xochitl Torres Small
                             March 7, 2019
    Good afternoon.
    I want to thank our witnesses for being here today.
    I welcome the new Members of the subcommittee, including Ranking 
Member Crenshaw.
    I look forward to working with all of you to conduct important 
oversight of the Department of Homeland Security.
    As a Member who represents a district on the Southern Border, I 
appreciate the opportunity to discuss the critical issue of 
recruitment, hiring, and retention at U.S. Customs and Border 
Protection.
    CBP employs nearly 45,000 law enforcement personnel across its 
three operational components--the Office of Field Operations (OFO), 
U.S. Border Patrol (Border Patrol), and Air and Marine Operations 
(AMO).
    These personnel have the tremendously important mission of 
safeguarding our Nation's borders while facilitating lawful trade and 
travel. More specifically, they are responsible for preventing 
terrorists and terrorist weapons from entering the United States and 
preventing the illegal trafficking of people, narcotics, and contraband 
into the United States. At the same time, CBP personnel are charged 
with facilitating cross-border commerce that is the lifeblood of 
communities like mine and essential to our National economy as well.
    However, critical law enforcement positions at CBP are vacant. In 
recent years, CBP has been unable to achieve minimum staffing levels 
for its Border Patrol agent positions or its staffing goals for other 
law enforcement officer positions.
    The agency has acknowledged difficulties with its lengthy 12-step 
hiring process, which includes a medical exam and polygraph. The time-
to-hire is on average 300 days, and less than 3 percent of applicants 
successfully complete the hiring process.
    Additionally, as a native of southern New Mexico, I know full well 
the challenges that CBP faces in attracting and retaining qualified 
personnel, particularly in remote areas where an employee's spouse may 
have trouble finding a job and children must travel far to attend 
school.
    Further, being a CBP officer or Border Patrol agent is a demanding 
job that requires an extraordinary amount of dedication. Agents and 
officers often work long hours in difficult conditions.
    I look forward to hearing about possible solutions to workforce 
challenges, including non-financial and financial incentives. I welcome 
any ideas the witnesses--or my colleagues--have for attracting and 
retaining qualified applicants.
    I hope we can also discuss the lessons learned from CBP's hiring 
contract with Accenture Federal Services. I understand there is a 
partial stop work order and that changes are being made to the contract 
to focus on advertising, marketing, and developing innovative 
practices.
    I want to learn more about the innovative ideas being considered 
for reducing CBP's time-to-hire and using data analytics to make 
recruitment more effective and efficient.
    I believe the recruiting, hiring, and retention problems can be 
solved if we work together to address them, and I look forward to 
continuing that effort today. Again, thank you to all of the witnesses 
for being here, and I look forward to your testimony.

    Ms. Torres Small. I now want to recognize the Ranking 
Member of the subcommittee, the gentleman from Texas, Mr. 
Crenshaw, for an opening statement.
    Mr. Crenshaw. Thank you, Chairwoman Torres Small. I really 
look forward to working with you. I think we are going to have 
a great time on this committee and get some things done in a 
very bipartisan fashion.
    To my fellow Members, it is an honor to serve with you as 
Ranking Member on this subcommittee, and I look forward to 
getting to know all of you, as well.
    We have a great opportunity to work together in a 
bipartisan manner to provide oversight, ensure quality and 
efficient management, and uphold accountability at the 
Department of Homeland Security.
    As Members of this subcommittee of the Homeland Security 
Committee we recognize that border security is critical to the 
National security of the United States. We must be willing and 
able to welcome visitors and trade into this country, but also 
have the capability to turn away those who seek to enter the 
country illegally.
    The agents and officers of the Customs and Border 
Protection are on the front lines, protecting our borders every 
day. They are the first line of defense on our border and at 
our ports of entry. The work they do is critical to the safety 
of our country.
    CBP is responsible for securing approximately 7,000 miles 
of land border, and in partnership with the U.S. Coast Guard 
approximately 95,000 miles of shoreline. It is not an easy job 
and oftentimes it is thankless.
    Agents and officers work long hours, often in very remote 
areas of the country, facing some of the toughest conditions. 
From the intense heat of the desert in the Southwest to the 
bone-chilling cold in the North, many of them are on the clock 
at all hours of the day and night.
    It takes a unique group of dedicated individuals to take on 
these jobs, and I have the utmost respect for the men and women 
who do. I want to make sure they have the best possible working 
conditions and we are attracting and retaining the best talent. 
I look forward to hearing from today's witnesses on the best 
ways to achieve that goal.
    To ensure the effective operation of the border we must 
ensure CBP has the necessary tools and staffing. We know that 
providing CBP with sophisticated technological tools, such 
biometric readers, sensors, radar, and drones, also allows them 
to operate more efficiently.
    We know that border fencing is an effective tool in the CBP 
toolbox because it allows agents to cover more ground. Agents 
cannot be in all places at all times, and a barrier gives them 
the opportunity to target resources.
    These tools are all necessary, but there is no substitute 
for boots on the ground. Without sufficient staffing these 
tools are wasted. As we continue to face larger groups of 
people seeking asylum and larger numbers of families attempting 
to enter the country, we must have enough agents and officers 
to effectively manage that flow.
    In recent years CBP has had trouble meeting its targets for 
its other law enforcement entities. CBP has not met its 
Congressionally-mandated hiring levels since fiscal year 2014, 
and at the current rate it takes approximately 50 applicants to 
hire 1 CBP agent or officer.
    In January 2017 President Trump issued an Executive Order 
requiring CBP to hire 5,000 more Border Patrol agents. CBP is 
currently short 6,927 Border Patrol agents, 1,000 CBP officers, 
and over 600 AMO front-line personnel. These personnel 
shortages create National security risks. They slow the 
movement of commerce, and they put additional strain on an 
already overworked border enforcement work force.
    In 2018 hiring outpaced attrition. Unfortunately, the fact 
remains CBP has had a difficult time recruiting and retaining 
the appropriate talent.
    The lengthy hiring process may be somewhat of a deterrent 
as it is 11 steps and includes a background investigation, 
medical exam, a polygraph examination. According to the GAO, 
the average length of time to hire an applicant was 318 days 
for a CBP officer and 274 for a Border Patrol agent. That is a 
long time to wait to start a job, and even the most dedicated 
individuals could be discouraged.
    One of the biggest barriers to bringing on talent in recent 
years is the polygraph process, which has a high failure rate. 
In fiscal year 2017 only 26 percent of Border Patrol agent 
applicants and 25 percent of CBP officers passed. A pilot 
program has been undertaken to improve on this process, and I 
look toward to hearing more about that today.
    I have introduced legislation that I believe will help 
attract even more talented individuals, such as veterans, State 
and local law enforcement, and other Federal law enforcement 
officers by allowing the polygraph to be waived for these 
individuals with the appropriate clearances.
    Thank you all for being here.
    I yield back.
    [The statement of Ranking Member Crenshaw follows:]
                Statement of Ranking Member Dan Crenshaw
                             March 7, 2019
    Chairwoman Torres Small, fellow Members, it is an honor to serve 
with you as Ranking Member on this subcommittee. I look forward to 
getting to know all of you and working with you to solve problems and 
uphold our duty to the American people. We have a great opportunity to 
work together in a bipartisan manner to provide oversight, ensure 
quality and efficient management, and uphold accountability in the 
Department of Homeland Security.
    As Members of the Committee on Homeland Security, we recognize that 
border security is critical to the National security of the United 
States. We must be willing and able to welcome visitors and trade into 
this country, but also have the capability to turn away those who seek 
to enter the country illegally. The agents and officers of the Customs 
and Border Protection are on the front lines protecting our borders 
every day. They are the first line of defense on our border and at our 
ports of entry. The work they do is critical to the safety of our 
country.
    CBP is responsible for securing approximately 7,000 miles of land 
border; and in partnership with the U.S. Coast Guard, approximately 
95,000 miles of shoreline. It is not an easy job, and often times it is 
thankless. Agents and officers work long hours in often times very 
remote areas of the country facing some of the toughest conditions. 
From the intense heat of the desert in the Southwest to the bone-
chilling cold in the North, many of them are on the clock at all hours 
of the day and night. It takes a unique group of dedicated individuals 
to take on these jobs and I have the utmost respect for the men and 
women who do. I want to make sure that they have the best possible 
working conditions and we are attracting and retaining the best talent. 
I look forward to hearing from today's witnesses on the best ways to 
achieve that goal.
    To ensure the effective operation of the border, we must ensure CBP 
has the necessary tools and staffing. We know that providing CBP with 
sophisticated technological tools such as biometric readers, sensors, 
radar, and drones also allows them to operate more efficiently. We know 
that border fencing is an effective tool in the CBP toolbox because it 
allows agents to cover more ground. Agents cannot be in all places at 
all times, but a barrier gives them the opportunity to target 
resources. These tools are all necessary, but there is no substitute 
for boots on the ground. Without sufficient staffing, these tools are 
wasted. As we continue to face larger groups of people seeking asylum 
and larger numbers of families attempting to enter the country, we must 
have enough agents and officers to effectively manage the flow.
    In recent years, CBP has had trouble meeting its targets for its 
other law enforcement entities. CBP has not met its Congressionally-
mandated hiring levels since fiscal year 2014. At the current rate, it 
takes approximately 50 applicants to hire one CBP agent or officer. In 
January 2017, President Trump issued an Executive Order requiring CBP 
to hire 5,000 more Border Patrol agents. CBP is currently short 6,927 
Border Patrol agents, 1,000 CBP officers, and over 600 AMO front-line 
personnel. These personnel shortages create National security risks, 
slow the movement of commerce, and put additional strain on an already 
overworked border enforcement workforce. In 2018 hiring outpaced 
attrition. Unfortunately, the fact remains, CBP has had a difficult 
time recruiting and retaining the appropriate talent.
    The lengthy hiring process may be somewhat of a deterrent as it is 
11 steps and includes a background investigation, medical examination, 
and a polygraph examination. According to GAO, the average length of 
time to hire an applicant in fiscal year was 318 days for a CBP officer 
and 274 days for a Border Patrol agent. This is a long time to wait to 
start a job and even the most dedicated individuals could be 
discouraged.
    One of the biggest barriers to bringing on talent in recent years 
is the polygraph process, which has a high failure rate. In fiscal year 
2017 only 26 percent of Border Patrol agent applicants and 25 percent 
of CBP officers passed.
    A pilot program has been undertaken to improve on this process and 
I look forward to hearing more about that today.
    I have introduced legislation that I believe will help to attract 
even more talented individuals such as veterans, State and local law 
enforcement, and other Federal law enforcement officers by allowing the 
polygraph to be waived for these individuals with the appropriate 
clearances.

    Ms. Torres Small. Thank you.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Ranking Member Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             March 7, 2019
    Thank you, Chairwoman Torres Small and Ranking Member Crenshaw for 
holding today's hearing.
    I am confident that under the Chairwoman's leadership, this 
subcommittee will do great work on behalf of the committee and the 
American people.
    Today, the committee is examining how to address Customs and Border 
Protection's (CBP) hiring challenges.
    More than 2 years ago, President Trump issued an Executive Order 
seeking to hire an additional 5,000 Border Patrol agents. In the rush 
to meet this hiring demand, CBP entered into a 5-year $297 million 
contract with Accenture with a goal of hiring 7,500 Border Patrol 
agents and CBP officers.
    More than a year later, CBP has spent nearly $20 million and only 
hired 35 agents and officers.
    While I am encouraged CBP came to its senses and issued a partial 
stop work order on the contract, I continue to have doubts about CBP's 
decision making as it tries to address its hiring struggles. I am 
concerned that this administration has acted in a rush to fulfill 
campaign promises rather than taking a thoughtful approach to hiring.
    Before contracting out its hiring at a potential cost of $300 
million, CBP needed to address systemic problems at the agency leading 
to attrition among its existing workforce and difficulty recruiting and 
hiring new personnel.
    As CBP assesses which aspects of the Accenture contract are and are 
not effective, it must refocus its hiring efforts on where its true 
needs lie. For example, CBP officers are a critical, yet often 
forgotten, resource in combatting drug trafficking. Indeed, they work 
on the front line at our ports of entry where most of the illegal drugs 
are smuggled into our country.
    It is encouraging that the DHS appropriations bill for 2019 
authorizes over $58 million for 600 new CBP officers. I hope to hear 
from our witnesses today whether this request meets the needs at our 
ports of entry.
    While CBP struggles to meet its long-standing staffing goals, it 
also must take steps to ensure that it retains its current personnel. 
Unfortunately, CBP faces high attrition rates across the component. 
This is not surprising given that the most recent Federal Employee 
Viewpoint Survey ranked CBP 372nd out of 415 agency subcomponents.
    To address these attrition and morale challenges, CBP should 
consider implementing workforce incentives to promote retention of its 
current personnel.
    I look forward to hearing from the witnesses today on what actions 
CBP is taking to evaluate the need for new personnel and develop a 
clear plan to better retain them once on duty. With that, I thank the 
witnesses for being here today and look forward to a productive 
hearing.

    Ms. Torres Small. We are going to have two panels today, 
and I just want to make a brief note about that.
    On this subcommittee I am very excited about working 
together to find solutions, and I think we have an incredible 
opportunity to do that. We have great people at the table today 
to help us do that. In the future I think the more people we 
can have at that table to work through those things so we can 
have the same questions asked to multiple people, the easier it 
will be.
    So I was a little disappointed the Department wasn't able 
to make that happen this time, but I deeply appreciate having 
everyone here and look forward to having a productive 
conversation and continuing to do that in the future.
    So I welcome the first panel of witnesses. Our first 
witness is Mr. Benjamine ``Carry'' Huffman, who serves as the 
acting assistant commissioner of enterprise services at U.S. 
Customs and Border Protection within the Department of Homeland 
Security.
    Mr. Huffman has served in many roles during his more than 
30 years at CBP. In his current role as acting EAC he oversees 
8 offices that touch key processes, such as hiring, 
procurement, training, and facilities management.
    Next we have Ms. Rebecca Gambler, who is a director in the 
Government Accountability Office, GAO, Homeland Security and 
Justice Team. Ms. Gambler joined GAO in 2002 and currently 
leads the agency's work on border security, immigration, and 
election issues.
    Finally, we are joined by Chief Patrol Agent Rodolfo 
Karisch, who was tapped to lead the U.S. Border Patrol's Rio 
Grande Valley sector in January 2019. Chief Karisch oversees 
Border Patrol's work in a sector that includes more than 34,000 
square miles of southeast Texas. Chief Karisch previously 
served as the chief of the Tucson and Del Rio sectors.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his or her statements for 5 minutes, beginning with Mr. 
Huffman.

  STATEMENT OF BENJAMINE ``CARRY'' HUFFMAN, ACTING EXECUTIVE 
 ASSISTANT COMMISSIONER, ENTERPRISE SERVICES, U.S. CUSTOMS AND 
                       BORDER PROTECTION

    Mr. Huffman. Good afternoon and thank you for allowing me 
to be here.
    Chairwoman Small, Ranking Member Crenshaw, and 
distinguished Members of the subcommittee, it is my honor to 
appear before you today representing the hardworking men and 
women of U.S. Customs and Border Protection. I am proud to 
serve an organization that plays such an important role for the 
security of our Nation.
    CBP is responsible for managing risks and threats along 
7,000 miles of border, 95,000 miles of shoreline, and 328 ports 
of entry. We are the Nation's first line of defense against 
international terrorists. We intercept billions of dollars' 
worth of dangerous narcotics, we facilitate lawful trade for 
roughly 1 million people every day, and that is just the tip of 
the iceberg. We enforce hundreds of U.S. laws and regulations 
on issues from immigration to trade.
    This is noble and vital work, but there is one serious 
problem: There are not enough of us.
    To accomplish the broad scope of CBP's missions we need 
capable, dedicated personnel. Air and Marine Operations need 
pilots to disrupt cocaine traffickers before they reach our 
shores. The Border Patrol needs agents to combat human 
smugglers. The Office of Field Operation needs officers to 
examine cargo for dangerous or illicit content.
    These aren't optional tasks. They are inherent to our 
Nation's security and our economic prosperity. However, 
historically, CBP has faced a number of challenges in hiring 
and retaining suitable candidates. While some of these factors 
are unique to CBP, such as our responsibility for securing 
extremely remote locations, other aspects are common across law 
enforcement.
    Our jobs are not for everyone. We demand vigilance and 
integrity in our public servants. As such, CBP has made it a 
priority to attract, hire, retain, and support a world-class 
resilient work force.
    Over the past 3 years CBP has made several improvements to 
our hiring process. We have targeted potential candidates who 
are interested in public service, such as criminal justice 
majors at colleges and universities, and continue to direct our 
recruitment resources toward veterans and transitioning service 
members.
    We started an applicant care program where recruiters stay 
in touch and help applicants throughout the hiring process. We 
are exploring creative ways to use pay and compensation 
flexibilities and provide a number of monetary and nonmonetary 
benefits to our CBP work force.
    For example, CBP's Office of Field Operations offers 
incentives and encourages applicants to accept job offers in 
critically understaffed, hard-to-fill ports. Since July 2015, 
1,300 applicants have accepted CBP's job offers with a 25 
percent or 33 percent recruitment incentive each year for a 3-
year service period. These incentives have resulted in both 
Ports of San Ysidro and Laredo closing their staffing gaps 
along with numerous hard-to-fill ports along the Northern 
Border.
    These improvements and others have led to significant 
recruitment and hiring gains. From fiscal year 2017 to fiscal 
year 2018 CBP achieved a 95 percent increase in overall Border 
Patrol hires, a 39 percent increase in CBP officer hires, and, 
in fact, for the first time in 6 years CBP hired more Border 
Patrol agents than were lost to attrition.
    However, we know there is much more work to do. We continue 
to look for ways to expedite the hiring process while 
maintaining the highest standards for our candidates. We 
continue to improve staffing models and build mobility 
programs. We continue to develop programs that support our work 
force and their families because we know there are sacrifices 
involved with public service.
    I cannot speak more plainly. In law enforcement people give 
their lives in the line of duty. We owe those who are called to 
serve a measure of respect and dignity. The men and women of 
CBP carry out difficult, sometimes dangerous work on behalf of 
the American people. I am honored to be a part of their ranks 
and proud to speak on their behalf.
    There is one more thing I would like to say before closing: 
CBP is hiring. If you have friends, relatives, or constituents 
of high moral character and are looking for a way to serve the 
greater good, there is no better organization in the Federal 
Government to do so than for U.S. Customs and Border 
Protection. They can visit us at CBP.gov/careers to learn more 
and apply. I will say that again, CBP.gov/careers. We are 
hiring.
    [The joint prepared statement of Mr. Huffman and Mr. 
Karisch follows:]
 Prepared Statement of Benjamine ``Carry'' Huffman and Rodolfo Karisch
                             March 7, 2019
    Chairwoman Torres Small, Ranking Member Crenshaw, and Members of 
the subcommittee, it is my honor to testify before you today on behalf 
of the U.S. Customs and Border Protection (CBP) workforce.
    I would like to begin with a few examples of the outstanding work 
the men and women of CBP do every day:
  <bullet> On January 26, 2019, CBP officers at the Nogales Commercial 
        Facility in Arizona seized nearly 650 pounds of fentanyl and 
        methamphetamine from a traveler when he attempted to enter the 
        United States. It was the largest seizure of fentanyl in CBP's 
        history, and the third-largest methamphetamine seizure at an 
        Arizona port.
  <bullet> On February 14, 2019, in three separate incidents, Border 
        Patrol agents from the Del Rio Sector's Special Operations 
        Detachment and marine units from the Eagle Pass station rescued 
        17 Central American migrants from drowning in the Rio Grande 
        River. Seven of the 17 migrants rescued were children.
  <bullet> During the partial Government shutdown, working without a 
        paycheck, aircrews from the National Air Security Operations 
        Center in Corpus Christi, Texas, flew 271 hours on 29 missions 
        and stopped nearly 11,000 pounds of cocaine from reaching the 
        U.S. border.
  <bullet> On February 11, 2019, Border Patrol agents at the Calexico 
        Station in California arrested a man suspected of entering the 
        United States illegally. When they transported him to the El 
        Centro Station to confirm his identity, agents discovered the 
        man was a convicted sex offender.
  <bullet> In the weeks leading up to Valentine's Day, CBP agriculture 
        specialists at Miami International Airport processed 
        approximately 950 million cut flower imports, protecting our 
        Nation's crops from dangerous pests and plant diseases.
  <bullet> On February 4, 2019, CBP kept tuna harvested with forced 
        labor out of the United States food supply by issuing a 
        withhold release order against tuna and tuna products from the 
        Tunago No. 61 Importers.
    As these cases illustrate, CBP's missions are diverse, challenging, 
and vitally important. We are charged with keeping terrorists, 
criminals, narcotics, and dangerous goods out of the United States, 
while simultaneously facilitating lawful trade and travel. To 
accomplish these missions, we need capable, dedicated personnel.
    Commissioner McAleenan has made it a priority to attract, hire, 
train, retain, and support a world-class, resilient workforce. This has 
resulted in several improvements to CBP's hiring process and 
significant recruitment and hiring gains. In fiscal year 2018, CBP 
hired more law enforcement personnel than we lost to attrition, with 
staffing levels of 23,477 CBP officers (an increase of 398) and 19,555 
Border Patrol agents (an increase of 118) at the end of the fiscal 
year. From fiscal year 2016 to fiscal year 2018, CBP also increased Air 
Interdiction agent hiring by 119 percent and Marine Interdiction agent 
hiring by 11 percent. CBP achieved a 95 percent increase in overall 
Border Patrol agent hires and a 39 percent increase in CBP officer 
hires from fiscal year 2017 to fiscal year 2018. In fact, for the first 
time in 6 years, CBP hired more Border Patrol agents than were lost to 
attrition.
    With support from Congress, we are making investments in our 
capability and capacity to hire across all front-line positions, 
focusing on attracting qualified candidates and expediting their 
progress through the CBP hiring process. CBP is also strengthening its 
ability to retain its existing workforce and improve workforce 
resilience.
                   historical and systemic challenges
    However, challenges remain. CBP is the Nation's largest Federal law 
enforcement organization, and many of our challenges are shared across 
other Federal, State, and local law enforcement agencies. The public 
scrutiny of law enforcement in general, combined with the requirement 
to work variable schedules, long shifts, and in remote locations are 
some of the reasons why individuals may be reluctant to apply for law 
enforcement positions. In addition, societal views and changing 
generational values make it more difficult to attract qualified and 
suitable candidates.
    Other recruitment and hiring challenges are unique to CBP. Our 
agency is responsible for managing risks and threats along 7,000 miles 
of Northern and Southern Border, 95,000 miles of shoreline, and 328 
ports of entry. As a result, some of our duty stations are in extremely 
remote areas, a significant distance from amenities and services such 
as medical care, child care and schools, and employment opportunities 
for spouses. Geographically remote locations are often accompanied by 
extreme environments and harsh weather conditions. Difficulty in 
staffing these locations may also be affected by a lack of affordable 
housing choices, consumer goods and services, and local infrastructure. 
Some hard-to-fill and geographically remote locations are sometimes 
associated with a higher cost of living.
    One example of a hard-to-fill location is Lukeville, Arizona. 
Although many of our Arizona border locations are remote and hard to 
fill, Lukeville is particularly challenging. It is an isolated outpost 
along the Mexican border, in a community of fewer than 50 people. It 
has one small grocery store and gas station. The closest school and 
medical clinic is 39 miles away in Ajo, Arizona. The nearest 
metropolitan area--Phoenix--is 150 miles away. The climate is 
especially harsh; in the summer, many of the local roads are impassible 
because of monsoons. Furthermore, the groundwater in Lukeville requires 
significant treatment to make it potable, due to traces of arsenic.
    The challenges CBP faces with hard-to-fill and remote locations 
include the limited pool of qualified and suitable candidates 
interested in working and living in these locales. While CBP has the 
ability to offer incentives for individuals to apply for, relocate to, 
or remain at these locations, incentives cannot solve basic, 
fundamental needs of our workforce and their families, such as readily 
accessible medical facilities, schools, and potable water.
    Working for CBP is not for everyone--we seek individuals committed 
to our core values of vigilance, integrity, and service to country. As 
such, our hiring program is intentionally rigorous. Individuals must 
successfully complete an entrance exam, qualifications review, 
interview, medical exam, drug screening, physical fitness test, 
polygraph examination, and a background investigation. By design, the 
hiring process is challenging for most applicants; as a result, a large 
number do not meet the agency's employment requirements.
    The Anti-Border Corruption Act of 2010 requires CBP to administer 
polygraph examinations to all applicants for law enforcement positions. 
The polygraph examination ensures CBP maintains the highest standards 
of integrity as we select only those applicants who are most suitable 
for a law enforcement position. However, the number of Federally-
certified polygraph examiners is limited (as there is only one Federal 
polygraph school and its throughput is limited), leading to competition 
among all Federal law enforcement agencies to fully staff polygraph 
programs. As a result, CBP has been unable to hire enough polygraph 
examiners to keep pace with its hiring pipeline, contributing to delays 
in processing applicants through the hiring process.
                   responding to staffing challenges
Recruitment Initiatives
    A key component of CBP's efforts is increasing the number of 
applicants in the pre-employment process. CBP established the National 
Frontline Recruiting Command (NFRC) to coordinate and strengthen 
recruiting efforts. This team, comprised of CBP front-line personnel 
and mission-focused experts, developed a National Frontline Recruitment 
Strategic Plan that outlines the strategic objectives, critical 
National- and local-level partnerships, and robust outreach strategies 
for front-line recruitment.
    CBP directs a large portion of our recruitment resources toward 
veterans and transitioning service members--one of the most important 
communities in CBP's staffing efforts, as veterans comprise nearly 30 
percent of our workforce. (In 2018, Monster.com named CBP as one of the 
``Best Companies for Veterans.'' It was the third year in a row CBP was 
honored with this distinction, and is the only Federal agency named to 
Monster.com's list.) CBP has partnered with the U.S. Department of 
Defense to open permanent CBP recruitment offices on multiple military 
bases, including Fort Bliss, Fort Bragg, Fort Campbell, Fort Hood, Fort 
Drum, Camp Lejeune, and Joint Base Lewis McChord.
    Under the NFRC, CBP recruiters continue to participate in thousands 
of recruitment events each year; since the beginning of fiscal year 
2017, CBP has participated in more than 5,000 recruitment events. CBP 
has also increased and professionalized its recruiter workforce, 
establishing a cadre of nearly 1,500 recruiters Nation-wide who are 
professionally trained and fully versed in the principles of applicant 
care. This includes a 5-day National Recruiter Course that establishes 
a high training standard for recruiters, promoting quality service to 
applicants.
    CBP also continues to implement a large-scale digital advertising 
effort incorporating data-driven marketing across multiple platforms, 
and planning recruitment events throughout the country. Through 
advanced data analytics, we identify areas with low ``brand awareness'' 
of CBP and refocus our marketing efforts to address these gaps. CBP has 
also developed candidate profiles, calibrating our marketing and 
communication efforts to these intended audiences. This way we target 
potential candidates who are more suited to the demands of CBP's front-
line mission.
    Through these enhanced recruitment capabilities, CBP continues to 
attract applicants to our front-line positions at a high rate, 
exceeding 165,000 applicants in both fiscal year 2017 and fiscal year 
2018.
Hiring Initiatives
    CBP continues to assess every aspect of our hiring practices, 
identifying and removing redundancies and ensuring that the best-
qualified applicants move through the process in a timelier manner. 
Over the past year, CBP has increased the number of human resources 
staff and contractors at the CBP Hiring Center by more than 25 percent 
to better handle the volume of front-line applicants and pre-employment 
requirement reviews.
    Focusing on the suitability portion of our hiring process, 
specifically the polygraph examination and the background 
investigation, in the past 2 years CBP has increased its polygraph 
examiner workforce, despite the limited availability of this talent; 
contracted with the private sector to maximize the number of available 
polygraph examiners; permanently implemented a shorter but equally 
effective polygraph format; completed an assessment of our background 
investigation process, which now allows some applicants to attend the 
academy on a provisional clearance while the full background 
investigation is being conducted; and completed a pre-security 
interview pilot designed to identify unsuitable candidates prior to 
administering the polygraph.
    To help keep applicants engaged throughout the hiring process, we 
have implemented an Applicant Care Program wherein recruiters help 
applicants throughout the hiring process. This program is designed to 
increase the number of applicants with recruitment efforts and prevent 
applicants from dropping out of the hiring process. By working one-on-
one with applicants throughout the process, our applicant quality is 
projected to increase while the discontinuation rate decreases. To help 
applicants know where they are in the application and hiring process, 
CBP developed a mobile application, CBPJobs, which allows applicants to 
track their progress throughout the hiring process.
    In addition, CBP recently launched the Fast Track Hiring Process, 
an expedited hiring program that streamlines the hiring process for CBP 
officer and Border Patrol agent applicants who can commit to 
accelerated hiring time frames. Under the Fast Track program, 
applicants who agree to complete required steps in the hiring process 
within set time lines can move through the hiring process more quickly. 
The Fast Track Hiring Process is aimed at reducing the time to hire to 
120 days or fewer.
    Other hiring process improvements include revisions to the entrance 
exam, which reduced the average test time from 4 hours to less than 3 
hours, and revisions to the medical exam designed to reduce the number 
of applicants requiring medical follow-up. In addition, in 2017, all 
entry-level front-line duty locations were changed to ``location 
negotiable'' in job announcements. This allows additional flexibility 
to both applicants and program offices, and allows applicants to select 
a location from a list of duty stations with the greatest staffing 
needs.
    I want to assure the subcommittee that none of the changes we have 
made to our hiring process has lowered the standards that applicants 
must meet in order to become a CBP law enforcement officer. CBP's 
hiring process remains rigorous and we continue to recruit and hire 
people of the highest caliber.
    In 2017, our efforts to improve hiring led the U.S. Office of 
Personnel Management to identify the CBP Hiring Center as a ``best-in-
class Federal hiring program'' that exemplified innovation and 
excellence.
Retention Initiatives
    To reduce attrition and better serve our workforce, CBP is working 
to retain personnel.
    In fiscal year 2017, CBP launched its Operational Mobility Program 
for Border Patrol agents, which addresses the No. 1 reason agents cite 
for leaving CBP: The inability to relocate. Some offices are using 
reassignment programs and/or ``job swaps'' to offer enhance mobility 
and developmental opportunities to those who are seeking a change in 
location.
    CBP has implemented retention incentives for the Office of Field 
Operations, U.S. Border Patrol, Air and Marine Operations, and the 
Office of Professional Responsibility. CBP is also exploring creative 
ways to retain law enforcement personnel in the future.
    A report by the U.S. Government Accountability Office (GAO) 
published in June 2018 recommended that systematically capturing and 
analyzing a wide range of information on all departing CBP law 
enforcement officers and the factors that influenced their decision to 
leave would better position CBP to understand and address its retention 
challenges. CBP concurred with GAO's recommendation, and agrees that 
high-quality exit survey data is essential to support and inform 
retention efforts. We are beginning to implement this recommendation, 
to capture issues beyond those already known (e.g. ``inability to 
relocate'').
Resilience Initiatives
    CBP is also implementing multiple efforts to improve workforce 
resilience, to better care for the men and women who give so much in 
the service of our country. The reality is that our front-line 
personnel often work in challenging environments, and have a 
difficult--often dangerous--mission. This sort of work can pose 
significant mental and physical challenges. Regrettably, between 2007 
and 2018, more than 100 CBP employees died by suicide--and a single 
suicide in our ranks is one too many.
    In 2016, Commissioner McAleenan created the National Resiliency 
Task Force (NRTF) to focus on suicide prevention and awareness, and 
improve the overall well-being of CBP employees and their families. In 
October 2017, Commissioner McAleenan established a Workforce Resilience 
and Engagement Division within the CBP Office of Human Resources 
Management to further support our workforce and maximize employee 
wellness and engagement.
    Although we cannot change the harsh realities of our jobs, we can 
give our front-line personnel tools to help them cope. We offer a best-
in-class Employee Assistance Program to our employees and their 
families, and we encourage its use, making what it offers better known. 
We offer health and wellness programs, and child and elder care 
support.
    We have also launched the Traumatic Incident and Events Response 
Team, a pilot program aimed a mitigating potential negative outcomes 
for employees who experience traumatic events; established unified CBP 
Peer Support and Chaplaincy training programs; held multiple family 
outreach events; and partnered with the RAND Corporation to conduct an 
employee survey focused on health, resilience, and wellness.
    Additionally, as a consequence of our difficult and dangerous 
mission, 41 officers and agents have died in the line of duty since the 
creation of CBP in 2003. Furthermore, 206 officers, agents, and 
inspectors from our legacy agencies have paid the ultimate sacrifice in 
service to their country. To address the many challenges that follow an 
employee's death and that extend well beyond the immediate aftermath of 
the tragedy and memorial service, Commissioner McAleenan established 
the Survivor Advocate Program to assist surviving family members 
navigate through the complex benefits system, identify available 
resources, and enhance engagement and communication. The program's 
mission is to develop long-term strategies, policies, and process 
changes to correct issues and concerns affecting our surviving 
families.
                               conclusion
    Our workforce is critical to accomplishing our CBP missions. With 
the support of Congress to provide us with the resources, authorities, 
and legislative changes requested, I believe that CBP will make strides 
in every area of our operations. As we continue to build our workforce 
through recruitment, hiring, retention, and resilience initiatives, we 
will maintain the integrity and professionalism the American people 
both expect and deserve. I appreciate your time and look forward to 
your questions.

    Ms. Torres Small. Thank you. Thank you for your testimony.
    I now recognize Ms. Gambler to summarize her statement for 
5 minutes.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good afternoon, Chairwoman Torres Small, 
Ranking Member Crenshaw, and Members of the subcommittee. Thank 
you for the opportunity to testify at today's hearing to 
discuss GAO's work on CBP's efforts to recruit, hire, and 
retain law enforcement personnel.
    CBP employs nearly 45,000 law enforcement personnel across 
its three operational components, which are the Office of Field 
Operations, the Border Patrol, and Air and Marine Operations. 
In recent years CBP has not been able to meet its staffing 
goals for law enforcement positions and has cited high 
attrition rates in some locations, a protracted hiring process, 
and competition with other law enforcement agencies as 
contributing to its staffing shortfalls.
    Our past work has identified areas of progress and 
challenges in CBP's recruitment, hiring, and retention efforts, 
which I will briefly summarize.
    First CBP has taken steps to improve its recruitment 
efforts. For example, CBP established a centralized recruitment 
office in 2016 and increased its participation and recruitment 
events. CBP also increased its use of recruitment incentives, 
particularly for CBP officers, and CBP officials told us that 
those incentives have been effective in filling staffing 
shortages at hard-to-fill locations.
    As a result of these and other efforts, CBP experienced an 
increase in the number of applications it received from fiscal 
years 2013 through 2017. As an example, the number of 
applications for Border Patrol agent positions increased from 
roughly 27,000 in fiscal year 2013 to more than 91,000 in 
fiscal year 2017.
    Second, CBP has taken steps to enhance its hiring process, 
which has led to improved performance in two key hiring 
metrics. These two metrics include the time to hire and the 
overall applicant pass rate, the latter of which calculates the 
estimated percentage of applicants who successfully complete 
the hiring process and enter on duty.
    CBP's time to hire for all law enforcement officer 
positions decreased from fiscal years 2015 through 2017. As an 
example, the time to hire decreased by 78 days for CBP officer 
positions.
    Further, overall applicant pass rates more than doubled for 
CBP officer and Border Patrol agent positions from fiscal year 
2016 to 2017.
    As a result of these and other efforts, CBP experienced an 
increase in the number of applicants who completed the hiring 
process and entered on duty during the first half of fiscal 
year 2018 compared to the first half of fiscal year 2017.
    However, despite these increases, CBP lost more officers 
and agents than it hired during the first half of fiscal year 
2018, illustrating the continued challenges CBP faces in 
retaining law enforcement personnel and meeting its staffing 
goals.
    Among other efforts it has taken toward improving the 
hiring process, CBP contracted with Accenture in November 2017 
to help the agency recruit and hire the 5,000 Border Patrol 
agents called for in a January 2017 Executive Order, as well as 
an additional 2,000 CBP officers and 500 Air and Marine 
Operations personnel.
    Under the contract Accenture is responsible for enhancing 
CBP's recruitment efforts and managing the hiring process for 
its recruits. At the time of our report last summer we noted 
that it was too early to evaluate the impact this contract 
might have on the recruiting and hiring processes.
    Finally, with regard to retaining law enforcement 
personnel, CBP has strengthened its retention efforts through, 
for example, the use of relocation opportunities and financial 
incentives. CBP's annual attrition rates for CBP officers and 
Border Patrol agents have generally been lower than those rates 
at other law enforcement agencies, such as U.S. Immigration and 
Customs Enforcement and the Bureau of Prisons.
    However, in recent years CBP has remained below its 
staffing goals. For example, Border Patrol finished fiscal year 
2017 nearly 2,000 agents below its statutorily-established 
minimum level and 7,000 below the staffing target established 
in response to the Executive Order. We also found that CBP 
could do more to collect and analyze information on law 
enforcement officers leaving the agency.
    In closing, CBP has made progress in improving its 
recruitment, hiring, and retention efforts. Even so, CBP faces 
continued challenges to its efforts, particularly in retaining 
law enforcement officers in hard-to-fill locations. CBP also 
needs to fully implement our recommendation to more 
systematically collect and use data on departing law 
enforcement officers.
    Members of the subcommittee, this completes my prepared 
statement, and I look forward to answering any questions.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                             March 7, 2019
                             gao highlights
    Highlights of GAO-19-419T, a testimony before the Subcommittee on 
Oversight, Management, and Accountability, Committee on Homeland 
Security, House of Representatives.
Why GAO Did This Study
    CBP is responsible for securing U.S. borders and employs nearly 
45,000 law enforcement officers across its three operational components 
at and between U.S. ports of entry, in the air and maritime 
environment, and at certain overseas locations. In recent years, CBP 
has not attained target staffing levels for its law enforcement 
positions, citing high attrition rates in some locations, a protracted 
hiring process, and competition from other law enforcement agencies.
    This statement addresses CBP's efforts to: (1) Recruit and more 
efficiently hire law enforcement applicants, and (2) retain law 
enforcement officers. This statement is based on a GAO report issued in 
June 2018 on CBP's recruiting, hiring, and retention efforts along with 
updates as of February 2019 on actions CBP has taken to address GAO's 
prior recommendation. For the previous report, GAO analyzed CBP data on 
recruitment efforts, hiring process steps, and retention rates; 
examined strategies related to these activities; and interviewed CBP 
officials and union groups. GAO also reviewed information on CBP 
actions to implement GAO's prior recommendation.
What GAO Recommends
    GAO recommended in its June 2018 report that CBP systematically 
collect and analyze data on departing law enforcement officers and use 
this information to inform retention efforts. DHS concurred, and CBP 
has actions planned or under way to address this recommendation.
    u.s. customs and border protection.--progress and challenges in 
      recruiting, hiring, and retaining law enforcement personnel
What GAO Found
    In June 2018, GAO reported that U.S. Customs and Border Protection 
(CBP) increased its emphasis on recruitment by establishing a central 
recruitment office in 2016 and increasing its participation in 
recruitment events, among other things. As a result, the number of 
applications it received for law enforcement positions across its 
operational components--the Office of Field Operations, U.S. Border 
Patrol, and Air and Marine Operations--more than tripled from fiscal 
years 2013 through 2017. Also, in November 2017, CBP hired a contractor 
to more effectively target potential applicants and better utilize data 
to enhance CBP's recruitment and hiring efforts. However, at the time 
of GAO's June 2018 report, it was too early to gauge whether the 
contractor would be effective in helping CBP to achieve its goal to 
recruit and hire more law enforcement officers.
    CBP improved its hiring process as demonstrated by two key 
metrics--reducing its time to hire and increasing the percentage of 
applicants that are hired. As shown in the table, CBP's time to hire 
decreased from fiscal year 2015 through 2017. CBP officials stated that 
these improvements, paired with increases in applications, have 
resulted in more hires. However, the hiring process remains lengthy. 
For example, in fiscal year 2017, CBP officer applications took more 
than 300 days, on average, to process. Certain factors contributed to 
the lengthy time to hire, including process steps that can be 
challenging and time-consuming for applicants to complete--such as the 
polygraph exam--as well as CBP's reliance on applicants to promptly 
complete certain aspects of the process--such as submitting their 
background investigation form.

     U.S. CUSTOMS AND BORDER PROTECTION'S (CBP) TIME-TO-HIRE FOR LAW
       ENFORCEMENT OFFICER POSITIONS, FISCAL YEARS (FY) 2015-2017
 
------------------------------------------------------------------------
                                                       Days
                                        --------------------------------
    Law Enforcement Officer Position       Fiscal     Fiscal     Fiscal
                                         Year 2015  Year 2016  Year 2017
------------------------------------------------------------------------
CBP officer............................        396        365        318
Border Patrol agent....................        628        306        274
Air and Marine Interdiction agents.....        365        338        262
------------------------------------------------------------------------
Source: GAO analysis of CBP data. GAO-19-419T

    CBP enhanced its efforts to address retention challenges. However, 
staffing levels for law enforcement positions consistently remained 
below target levels. For example, CBP ended fiscal year 2017 more than 
1,100 CBP officers below its target staffing level. CBP officials cited 
employees' inability to relocate to more desirable locations as the 
primary retention challenge. CBP offered some relocation opportunities 
to law enforcement personnel and has pursued the use of financial 
incentives and other payments to supplement salaries, especially for 
those staffed to remote or hard-to-fill locations. However, retaining 
law enforcement officers in hard-to-fill locations continues to be 
challenging for CBP. GAO reported that CBP could be better positioned 
to understand its retention challenges and take appropriate action to 
address them by implementing a formal process for capturing information 
on all departing employees. In response, CBP officials reported taking 
steps to implement a CBP-wide exit survey and plan to analyze the 
results of the survey quarterly, beginning April 2019.
    Chairwoman Torres Small, Ranking Member Crenshaw, and Members of 
the subcommittee: I am pleased to be here today to discuss our work on 
U.S. Customs and Border Protection's (CBP) efforts to recruit, hire, 
and retain law enforcement personnel. CBP is responsible for, among 
other things, securing U.S. borders to prevent acts of terrorism and 
stopping the unlawful movement of people, illegal drugs, and other 
contraband across U.S. borders. To carry out these objectives, CBP 
employs nearly 45,000 law enforcement personnel across its three 
operational components--the Office of Field Operations (OFO), U.S. 
Border Patrol (Border Patrol), and Air and Marine Operations (AMO)--at 
and between U.S. ports of entry, in the U.S. air and maritime 
environment, and at certain overseas locations.\1\ However, in recent 
years, CBP has not been able to attain its statutorily-established 
minimum staffing levels for its Border Patrol agent positions or its 
staffing goals for other law enforcement officer positions, citing high 
attrition rates in some locations, a protracted hiring process, and 
competition from other Federal, State, and local law enforcement 
agencies. Additionally, Executive Order 13767, issued in January 2017, 
called for CBP to hire 5,000 additional Border Patrol agents, subject 
to available appropriations. Consistent with this directive, Border 
Patrol is aiming to attain a staffing level of 26,370 Border Patrol 
agents (5,000 agents above the fiscal year 2016 statutorily established 
level). As of early February 2019, Border Patrol had 19,443 agents on-
board, which is 6,927 agents below the target level, according to CBP.
---------------------------------------------------------------------------
    \1\ Within CBP's three operational components--OFO, Border Patrol, 
and AMO--there are 5 categories of law enforcement officer positions, 
each with different job requirements and responsibilities. First, OFO's 
CBP officers conduct immigration and customs inspections at ports of 
entry to prevent the illicit entry of travelers, cargo, merchandise, 
and other items. Second, Border Patrol agents are responsible for 
securing the U.S. border between ports of entry and responding to 
cross-border threats. Third, AMO has three categories of law 
enforcement officers--Air Interdiction agents, Aviation Enforcement 
agents, and Marine Interdiction agents--who interdict and disrupt 
threats to the United States in the air and maritime environments at 
and beyond the border.
---------------------------------------------------------------------------
    In June 2018, we reported on the extent to which CBP has developed 
and implemented an approach to recruit qualified law enforcement 
officers, revised its hiring process and made efforts to more 
efficiently hire law enforcement applicants, and developed and 
implemented an approach to retain law enforcement officers.\2\ This 
statement summarizes information from that report, as well as actions 
CBP has taken, as of February 2019, to address our recommendation from 
the report that CBP systematically collect and analyze data on 
departing law enforcement officers and use this information to inform 
retention efforts. To conduct the work for our June 2018 report, we 
analyzed CBP data on recruitment efforts, hiring process steps, and 
retention rates and retention incentives; reviewed documentation on CBP 
recruitment, hiring, and retention strategies; and interviewed 
officials from CBP and each of the three operational components. We 
also interviewed officials from the National Border Patrol Council 
union and National Treasury Employees Union--which represent CBP 
officers. For this statement, we also reviewed the November 2017 
contract CBP awarded to Accenture Federal Services, LLC, to help meet 
the staffing requirements outlined in Executive Order 13767 and 
interviewed CBP officials responsible for managing the contract. More 
detailed information on our objectives, scope, and methodology is 
contained in our June 2018 report. We also reviewed information on CBP 
actions to implement our prior recommendation. The work upon which this 
statement is based was conducted in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \2\ GAO, U.S. Customs and Border Protection: Progress and 
Challenges in Recruiting, Hiring, and Retaining Law Enforcement 
Personnel, GAO-18-487 (Washington, DC: June 27, 2018).
---------------------------------------------------------------------------
 cbp has taken steps to improve its recruiting and hiring process, but 
                      the process remains lengthy
CBP Has Enhanced Its Recruitment Efforts and Applications for Law 
        Enforcement Officer Positions Have Increased
    We reported in June 2018 that CBP increased its emphasis on 
recruitment by establishing a central recruitment office and increasing 
its participation in recruitment events. Specifically, CBP's 
recruitment budget allocated by the centralized recruting office almost 
doubled, from approximately $6.4 million in fiscal year 2015 to more 
than $12.7 million in fiscal year 2017. CBP also more than tripled the 
total number of recruitment events it participated in, from 905 events 
in fiscal year 2015 to roughly 3,000 in both fiscal years 2016 and 
2017. In addition, we reported that CBP had increased its use of 
recruitment incentives for OFO specifically from fiscal years 2015 
through 2017 to help staff hard-to-fill locations. A recruitment 
incentive may be paid to a newly-appointed employee if an agency 
determines that a position is likely to be difficult to fill in the 
absence of such an incentive. From fiscal years 2015 through 2017, OFO 
increased the number of recruitment incentives it paid to CBP officers 
from 9 incentives in 2 locations at a total cost of about $77,600 to 
446 incentives across 18 locations at a cost of approximately $4.3 
million. AMO and Border Patrol did not use recruitment incentives from 
fiscal years 2015 through 2017.
    As a result of its efforts, CBP also experienced an increase in the 
number of applications it received for law enforcement officer 
positions across all 3 operational components from fiscal years 2013 
through 2017. For example, with the exception of fiscal year 2014, 
applications for Border Patrol agent positions increased every year, 
from roughly 27,000 applications in fiscal year 2013 to more than 
91,000 applications in fiscal year 2017. Further, during the same 
period, applications for CBP officer positions increased from 
approximately 22,500 to more than 85,000, and applications for AMO's 
law enforcement officer positions increased from about 2,000 to more 
than 5,800.
CBP's Hiring Process Has Improved, but the Process Remains Lengthy
    As we reported in June 2018, CBP's law enforcement applicants 
undergo a lengthy and rigorous hiring process that includes nearly a 
dozen steps, including a background investigation, medical examination, 
physical fitness test, and polygraph examination. Several of these 
steps can be done concurrently for example, CBP can begin the 
background investigation while the candidate completes the physical 
fitness test and medical examination process steps. Figure 1 depicts 
the hiring process for Border Patrol agent and CBP officer 
positions.\3\
---------------------------------------------------------------------------
    \3\ AMO's hiring process differs from those for Border Patrol 
agents and CBP officers regarding exams, certifications, and 
credentials required.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    From fiscal years 2015 through 2017, CBP generally improved its 
performance in two key metrics to assess the efficiency and 
effectiveness of its hiring process for law enforcement officer 
positions. Specifically, CBP reduced its time-to-hire (the average 
number of days that elapsed between the closing date of a job 
announcement and an applicant's entry-on-duty date) and increased the 
percentage of applicants that are hired. With regard to the time-to-
hire metric, as shown in table 1, CBP's time-to-hire decreased from 
fiscal years 2015 through 2017.

  TABLE 1.--U.S. CUSTOMS AND BORDER PROTECTION'S (CBP) TIME-TO-HIRE FOR
     LAW ENFORCEMENT OFFICER POSITIONS, FISCAL YEARS (FY) 2015-2017
 
------------------------------------------------------------------------
                                                       Days
                                        --------------------------------
    Law Enforcement Officer Position       Fiscal     Fiscal     Fiscal
                                         Year 2015  Year 2016  Year 2017
------------------------------------------------------------------------
CBP officer............................        396        365        318
Border Patrol agent....................        628        306        274
Air and Marine Interdiction agents.....        365        338        262
------------------------------------------------------------------------
Source: GAO analysis of CBP data. GAO-19-419T

    With regard to the percentage of applicants that are hired, CBP's 
overall applicant pass rate metric calculates the estimated percentage 
of applicants who successfully complete the hiring process and enter on 
duty. CBP data indicate that overall applicant pass rates more than 
doubled for CBP officer and Border Patrol agent positions from fiscal 
years 2016 through 2017. CBP officials told us that higher overall 
applicant pass rates paired with recent increases in the number of 
applications received by the agency are starting to result in an 
increase in the number of law enforcement officers hired, as applicants 
complete CBP's hiring process and officially enter on duty. As we 
reported in June 2018, CBP data indicated that more law enforcement 
officers entered on duty in the first half of fiscal year 2018 than 
entered on duty in the first half of fiscal year 2017. Specifically, 
the total number of CBP officers and Border Patrol agents that entered 
on duty in the first half of fiscal year 2018 increased by roughly 50 
percent and 83 percent, respectively, when compared to the same period 
of the prior fiscal year. Further, the total number of AMO law 
enforcement officers that entered on duty in the first half of fiscal 
year 2018 more than doubled from the same period of fiscal year 2017.
    As we reported in June 2018, CBP has made efforts to improve its 
hiring process by revising certain aspects of the process, among other 
things. According to agency officials, these efforts to streamline and 
improve CBP's overall hiring process have collectively resulted in the 
decreased time-to-hire and increased overall applicant pass rates 
discussed above. For example, in March 2017, CBP was granted the 
authority to waive the polygraph examination for veterans who meet 
certain criteria, including those who hold a current, active Top-
Secret/Sensitive-Compartmented-Information clearance.\4\ Also, in April 
2017, CBP received approval from the Office of Personnel Management to 
use direct-hire authority for law enforcement positions, which allows 
CBP to expedite the typical hiring process by eliminating competitive 
rating and ranking procedures and veterans' preference. As of March 31, 
2018, 77 CBP officers and 107 Border Patrol agents had entered on duty 
through this authority.
---------------------------------------------------------------------------
    \4\ The National Defense Authorization Act for Fiscal Year 2017 
permitted the Commissioner of CBP to waive the polygraph examination 
requirement for any veteran applicant deemed suitable for employment 
who holds a current, active Top-Secret clearance and is able to access 
sensitive compartmented information; has a current single-scope 
background investigation; and was not granted any waivers to obtain the 
clearance. Pub. L. No. 114-328, div. A, tit. X, subtit. E,  1049, 130 
Stat. 2000, 2396 (2016) (classified at 6 U.S.C.  221 note).
---------------------------------------------------------------------------
    CBP has also made revisions to specific steps in its hiring 
process, including the application, entrance examination, and polygraph 
examination, among others. For example, in fiscal year 2016, CBP 
reordered its hiring process to place the entrance examination as the 
first step directly after an applicant submitted an application. Prior 
to this change, CBP conducted qualification reviews on applicants to 
ensure they met position requirements before inviting them to take the 
entrance exam. According to CBP officials, this updated process 
provided applicants with the opportunity to obtain a realistic preview 
of the job they were applying for earlier in the hiring process. These 
officials explained that this helps to ensure that only those 
applicants who are committed to completing the hiring process and 
entering on duty at CBP continue through the hiring pipeline, which may 
help to address high applicant discontinue rates (e.g., roughly half of 
all eligible applicants in fiscal year 2015 did not take the exam). 
According to CBP officials, this revision also created efficiencies as 
the agency no longer has to spend time and resources on completing 
qualification reviews for applicants who either did not show up to take 
the exam or failed the exam itself.
    CBP has also made several changes to its polygraph examination 
process step, which has consistently had the lowest pass rate of any 
step in its hiring process. For example, among other things, CBP has 
increased the number of polygraph examiners available to administer the 
test, according to agency officials, and was piloting a new type of 
polygraph exam. According to CBP officials, the new examination focuses 
on identifying serious crimes and is sufficiently rigorous to ensure 
that only qualified applicants are able to pass. Preliminary data from 
CBP's pilot show that this new exam has demonstrated higher pass rates 
when compared with CBP's traditional polygraph exam while also taking 
less time, on average, per test to complete. At the time of our review, 
it was too early to tell if these efforts will result in improvements 
to the polygraph examination step. Available CBP data indicate mixed 
results. Specifically, while the average duration to complete this step 
decreased for all law enforcement officer positions from fiscal years 
2015 through 2017, pass rates also declined slightly over this same 
period. For example, for Border Patrol agents, the pass rate declined 
from 28 to 26 percent, while for CBP officers, it declined from 32 to 
25 percent.
    While CBP had reduced its time-to-hire and made efforts to improve 
its hiring process for law enforcement officers, CBP officials noted 
that the hiring process remained lengthy, which directly affected the 
agency's ability to recruit and hire for law enforcement positions. CBP 
officials also stated that their ability to further improve CBP's time-
to-hire and increase law enforcement hires was affected by hiring 
process steps that can be challenging and time-consuming for applicants 
to complete, as well as CBP's reliance on applicants to promptly 
complete certain aspects of the process. In fiscal year 2017, it took 
an average of 274 days for Border Patrol agent applicants and 318 days 
for CBP officer applicants to complete all hiring steps and enter on 
duty. According to a leading practice in hiring we identified for such 
positions, agencies should ensure that the hiring process is not 
protracted or onerous for applicants. According to CBP officials, the 
agency's multi-step hiring process for its law enforcement officer 
positions was intentionally rigorous and involves extensive applicant 
screening to ensure that only qualified candidates meet the technical, 
physical, and suitability requirements for employment at CBP. Even so, 
CBP officials across several components told us that the agency's time-
to-hire was too long and directly affected the component's ability to 
recruit and hire for law enforcement positions. For example, OFO 
officials told us that the longer the hiring process takes to complete, 
the more likely it was that an applicant will drop out. Further, 
qualified applicants may also decide to apply for employment at a 
competing law enforcement agency that may have a less rigorous process 
than CBP's, according to CBP officials.
    One factor that affects CBP's ability to efficiently process and 
on-board law enforcement officers are specific hiring process steps 
that are time-consuming and challenging for candidates to complete. For 
example, CBP officials cited the polygraph examination as a significant 
bottleneck within CBP's hiring process. In addition to having the 
lowest pass rate of any step in CBP's process, the polygraph 
examination also took CBP officer and Border Patrol agent applicants, 
on average, the longest amount of time to complete in fiscal year 
2017--74 days and 94 days, respectively. Further, CBP officials told us 
that these already lengthy time frames may increase further because of 
the growing number of applicants for CBP's law enforcement positions. 
In addition, on average, it took CBP law enforcement officer applicants 
across all 3 components 55 days or more to complete the medical 
examination and more than 60 days to complete the background 
investigation.
CBP's Accenture Contract Is Intended to Further Enhance CBP's 
        Recruitment and Hiring Efforts
    In November 2017, CBP hired a contractor--Accenture Federal 
Services, LLC--to help the agency recruit and hire the 5,000 Border 
Patrol agents called for in Executive Order 13767, as well as an 
additional 2,000 CBP officers and 500 AMO personnel. Specifically, at 
the time of our June 2018 report, the contract had a total potential 
period of 5 years at a not-to-exceed value of $297 million. The 
contract included a base year and 4 1-year option periods, which CBP 
may exercise at its discretion for a total potential period of 5 years. 
Under this performance-based contract, Accenture is responsible for 
enhancing CBP's recruitment efforts and managing the hiring process for 
those applicants it recruits.
    We reported that the Accenture contract is intended to enhance 
CBP's recruitment efforts by improving its marketing strategy and 
utilizing new ways to capture and analyze data to better inform 
recruitment efforts, according to CBP officials. To meet target 
staffing levels, CBP expected that the contractor would augment CBP's 
current hiring infrastructure while pursuing new and innovative hiring 
initiatives. Specifically, the contractor is responsible for 
implementing the same hiring process steps and ensuring that all 
applicants recruited by Accenture meet CBP's standards. CBP officials 
also told us that Accenture has the flexibility to pursue novel hiring 
tactics and pilot initiatives that CBP may not have considered or been 
able to undertake. For example, Accenture plans to pilot innovative 
ways to reduce the time-to-hire, including by streamlining steps in the 
hiring process, which could help to improve CBP's overall process and 
generate increased hires for law enforcement positions. At the time of 
our June 2018 report, some key issues were still being negotiated 
between CBP and the contractor. For example, while CBP officials told 
us that the main metric used to assess Accenture's effectiveness will 
be the total number of hires the contractor produces, they were still 
working to finalize other key metrics for evaluating the contractor's 
effectiveness as well as an oversight plan to ensure the contractor 
operates according to agency requirements. As a result, we reported 
that it was too early to determine whether these initiatives would help 
increase the number and quality of applicants for CBP's law enforcement 
officer positions. We also reported that it was too early to evaluate 
whether the contractor would be able to efficiently and effectively 
provide the surge hiring capacity CBP needs to achieve its staffing 
goals.
  cbp has enhanced its retention efforts, but does not systematically 
    collect and analyze data on departing law enforcement personnel
Retaining Law Enforcement Officers in Hard-to-Fill Locations Has Been 
        Challenging for CBP
    In June 2018, we reported that CBP's annual rates of attrition were 
relatively low, but CBP faced challenges retaining law enforcement 
officers in hard-to-fill locations. From fiscal years 2013 through 
2017, OFO's annual attrition rates for the CBP officer position were 
consistent at about 3 percent, while rates for Border Patrol agent and 
AMO's Marine Interdiction agent positions were below 5 percent in 4 out 
of the 5 fiscal years we reviewed. When we compared CBP's annual 
attrition rates for these positions to those of other selected law 
enforcement agencies, we found that CBP's attrition rates were similar 
to U.S. Immigration and Customs Enforcement's (ICE) annual attrition 
rates for its law enforcement positions and generally lower than those 
of the Secret Service and the Federal Bureau of Prisons. Annual 
attrition rates for AMO's aviation positions were higher, ranging from 
5.0 percent to 9.2 percent for the Air Interdiction agent position and 
7.8 percent to 11.1 percent for the Aviation Enforcement agent 
position. Even so, fiscal years 2015 through 2017, attrition rates for 
these positions have generally remained lower than those of the Secret 
Service and the Bureau of Prisons.
    In addition, from fiscal years 2013 through 2017, CBP's ability to 
hire more law enforcement officers than it lost varied across 
positions. Specifically, CBP consistently hired more CBP officers and 
Aviation Enforcement agents than it lost. Further, while CBP generally 
maintained its staffing levels for Marine Interdiction agents, the 
agency consistently lost more Border Patrol agents and Air Interdiction 
agents than it hired. Even so, on-board staffing levels for all 5 of 
CBP's law enforcement officer positions have consistently remained 
below authorized staffing levels.\5\
---------------------------------------------------------------------------
    \5\ OFO and AMO develop annual authorized staffing level targets 
for law enforcement officer positions based on operational needs and 
available funding. Border Patrol's authorized staffing levels through 
fiscal year 2016 represent statutorily established workforce floors 
while the fiscal year 2017 authorized staffing level for Border Patrol 
agents represents the office-wide goal of having 26,370 Border Patrol 
agents, which includes the 5,000 additional agents Executive Order 
13767 directs CBP to hire and on-board.
---------------------------------------------------------------------------
    CBP has acknowledged that improving its retention of qualified law 
enforcement personnel is critical in addressing staffing shortfalls, 
but CBP officials identified difficulties in retaining key law 
enforcement staff as a result of geographically remote and hard-to-fill 
duty locations. CBP officials across all three operational components 
cited location--and specifically employees' inability to relocate to 
posts in more desirable locations--as a primary challenge facing the 
agency in retaining qualified personnel.
    Border Patrol officials explained that duty stations in certain 
remote locations present retention challenges due to quality-of-life 
factors. For example, the officials told us that agents may not want to 
live with their families in an area without a hospital, with low-
performing schools, or with relatively long commutes from their homes 
to their duty station. Border Patrol's difficulty in retaining law 
enforcement staff in such locations is exacerbated by competition with 
other Federal, State, and local law enforcement organizations for 
qualified personnel. According to Border Patrol officials, other 
agencies are often able to offer more desirable duty locations--such as 
major cities--and, in some cases, higher compensation.
    CBP data indicate that Border Patrol agents consistently leave the 
component for employment with other law enforcement agencies, including 
OFO as well as other DHS components such as ICE. For example, while 
retirements accounted for more than half of annual CBP officer losses 
from fiscal years 2013 through 2017, they accounted for less than a 
quarter of annual Border Patrol agent losses, indicating that the 
majority of these agents are not retiring but are generally leaving to 
pursue other employment. Further, according to CBP data, the number of 
Border Patrol agents departing for employment at other Federal agencies 
increased steadily, from 75 agents in fiscal year 2013 to 348 agents in 
fiscal year 2017--or nearly 40 percent of all Border Patrol agent 
losses in that fiscal year. Border Patrol officials told us, for 
example, that working a standard day shift at ICE in a controlled 
indoor environment located in a major metropolitan area for similar or 
even lower salaries presents an attractive career alternative for 
Border Patrol agents who often work night shifts in extreme weather in 
geographically remote locations. The president of the National Border 
Patrol Council also cited this challenge, stating that unless Border 
Patrol agents have a strong incentive to remain in remote, undesirable 
locations--such as higher compensation when compared with other law 
enforcement agencies--they are likely to leave the agency for similar 
positions located in more desirable locations.
    While OFO officials told us the component did not face an across-
the-board challenge in retaining CBP officers, they have had difficulty 
retaining officers in certain hard-to-fill locations that may be 
geographically remote or unattractive for families, such as Nogales, 
Arizona, and San Ysidro, California. As a result, CBP officer staffing 
levels in these locations have consistently remained below authorized 
targets.
    AMO has also had difficulty retaining its law enforcement 
personnel--and particularly its Air Interdiction agent staff--in hard-
to-fill locations, such as Aguadilla, Puerto Rico, and Laredo, Texas. 
However, given the unique qualifications and competencies required for 
the Air Interdiction agent position, AMO does not compete with other 
law enforcement organizations. Instead, AMO officials told us they 
compete with the commercial airline industry for qualified pilots. 
Specifically, they stated that this competition is exacerbated by a 
Nation-wide shortage of pilots. In addition, AMO officials explained 
that there is a perception among applicants that commercial airlines 
are able to offer pilots more desirable locations and higher 
compensation. However, they told us that AMO generally provided pilots 
with higher starting salaries than many regional airlines as well as 
most career options available to helicopter pilots.
CBP Has Taken Steps to Address Retention Challenges
    All three CBP operational components have taken steps to retain 
qualified law enforcement personnel by offering opportunities for 
employees to relocate to more desirable locations and pursuing the use 
of financial incentives, special salary rates, and other payments and 
allowances.
    Relocation opportunities.--Border Patrol, OFO, and AMO have formal 
programs that provide law enforcement officers with opportunities to 
relocate. For example, in fiscal year 2017, Border Patrol implemented 
its Operational Mobility Program and received initial funding to 
relocate about 500 Border Patrol agents to new locations based on the 
component's staffing needs. According to Border Patrol officials, 
retaining current employees is a top focus for leadership at the 
component and this program provides Border Patrol agents with 
opportunities for a paid relocation to a more desirable location at a 
lower cost to CBP than an official permanent change of station 
transfer. As of April 2018, Border Patrol officials told us that 322 
Border Patrol agents had accepted reassignment opportunities through 
the program and the component hoped to continue receiving funding to 
provide these opportunities.
    Financial Incentives and Other Payments and Allowances.--CBP's 
three operational components have also taken steps to supplement 
employees' salaries through the use of human capital flexibilities--
such as retention and relocation incentives and special salary rates--
as well as other payments and allowances. CBP's goal in pursuing these 
human capital flexibilities is to retain current employees--especially 
in remote or hard-to-fill locations--who are likely to internally 
relocate within CBP to more desirable duty locations or depart the 
agency for similar positions at other law enforcement organizations or 
commercial airlines.
    However, we found that from fiscal years 2013 through 2017, CBP's 
use of such financial incentives and other payments was limited, as the 
agency paid a total of 4 retention incentives and 13 relocation 
incentives, and implemented one special salary rate for all positions 
during this 5-year period. From fiscal years 2013 through 2017, Border 
Patrol did not offer retention incentives to agents and paid two 
relocation incentives to transfer Border Patrol agents to Artesia, New 
Mexico, and Washington, DC, at a cost of roughly $78,000. However, in 
fiscal year 2018, Border Patrol increased its use of relocation 
incentives to facilitate the transfer of agents to duty stations along 
the Southwest Border that are less desirable due to the remoteness of 
the location and lack of basic amenities and infrastructure. 
Specifically, as of April 2018, 67 Border Patrol agents had received 
such incentives to relocate to duty stations in Ajo, Arizona; Calexico, 
California; and Big Bend, Texas; among others.
    While Border Patrol did not offer retention incentives during our 
review period, it submitted a formal request to CBP leadership in 
February 2018 for a 10 percent across-the-board retention incentive for 
all Border Patrol agents at the GS-13 level and below, which represents 
the majority of the component's front-line workforce. According to 
Border Patrol documentation, these incentives, if implemented, could 
help reduce Border Patrol's attrition rate--which has consistently 
outpaced its hiring rate--by helping retain agents who may have 
otherwise left Border Patrol for similar positions in OFO, ICE, or 
other law enforcement agencies. According to CBP officials, as of April 
2018, CBP leadership was evaluating Border Patrol's group retention 
incentive request, including the costs associated with implementing 
this 10 percent across-the-board incentive. In addition, as the 
incentive would benefit Border Patrol agents in all of the component's 
duty locations, the extent to which this effort would be effective in 
targeting agent attrition in the remote locations that represent CBP's 
largest staffing challenges remains to be seen. Border Patrol approved 
the 10 percent retention incentive and is awaiting funding for 
implementation, according to officials.
    From fiscal years 2013 through 2017, OFO paid a total of 4 
retention incentives at a cost of $149,000 to retain CBP officers in 
Tucson, Arizona; Detroit, Michigan; Carbury, North Dakota; and Laredo, 
Texas. Further, OFO paid 7 relocation incentives at a cost of 
approximately $160,000 to relocate personnel to the hard-to-fill ports 
of Alcan and Nome, Alaska; Coburn Grove, Maine; and Detroit, Michigan. 
One OFO official told us OFO did not regularly use these incentives 
because its relatively low annual attrition rates make it difficult to 
propose a persuasive business case to CBP leadership that such 
incentives are necessary. Further, another OFO official explained that 
OFO's strategy is focused on using recruitment incentives to staff 
hard-to-fill locations with new employees.
    From fiscal years 2013 through 2017, AMO did not offer retention 
incentives to law enforcement personnel and paid a total of 4 
relocation incentives to transfer 3 Air Interdiction agents and one 
Marine Interdiction agent to Puerto Rico at a cost of approximately 
$84,000. However, AMO has taken steps to pursue additional human 
capital flexibilities to address its difficulty in retaining Air 
Interdiction agents, including a group retention incentive and a 
special salary rate.
CBP Does Not Have a Systematic Process to Capture and Analyze Data on 
        Departing Law Enforcement Officers
    In June 2018, we reported that CBP does not have a systematic 
process for capturing and analyzing information on law enforcement 
officers who are leaving, such as an exit interview or survey. As a 
result, the agency does not have important information it could use to 
help inform future retention efforts. Standards for Internal Control in 
the Federal Government states that management should obtain relevant 
data from reliable sources and process these data into quality 
information to make informed decisions in achieving key objectives.\6\ 
Taking steps to ensure that the agency's operational components are 
systematically collecting and analyzing complete and accurate 
information on all departing law enforcement officers--including the 
factors that influenced their decision to separate--would better 
position CBP to understand its retention challenges and take 
appropriate action to address them. We recommended that CBP should 
ensure that its operational components systematically collect and 
analyze data on departing law enforcement officers and use this 
information to inform retention efforts. CBP agreed with the 
recommendation. CBP officials reported in February 2019 that they 
developed and implemented a CBP-wide exit survey in August 2018 and 
have taken steps to promote the survey and encourage exiting CBP 
employees to fill it out. The officials also noted that they plan to 
analyze the survey results on a quarterly basis starting in April 2019. 
These actions, if fully implemented, should address the intent of our 
recommendation.
---------------------------------------------------------------------------
    \6\ GAO, Standards for Internal Control in the Federal Government, 
GAO-14-704G (Washington, DC: September 2014).
---------------------------------------------------------------------------
    Chairwoman Torres Small, Ranking Member Crenshaw, and Members of 
the subcommittee, this completes my prepared statement. I would be 
happy to respond to any questions you or the Members of the committee 
may have.

    Ms. Torres Small. Thank you for your testimony.
    I now recognize Chief Karisch to summarize his statement 
for 5 minutes.

 STATEMENT OF RODOLFO KARISCH, CHIEF PATROL AGENT, RIO GRANDE 
               VALLEY SECTOR, U.S. BORDER PATROL

    Mr. Karisch. Thank you, ma'am.
    Chairwoman Torres Small, Ranking Member Crenshaw, and 
distinguished Members of the subcommittee, thank you for the 
chance to appear before you today.
    I have more than 30 years of Border Patrol experience and 
currently serve as chief patrol agent of the Rio Grande Valley 
Sector. Prior to this assignment I served as the chief patrol 
agent of the Tucson Sector. Over the past several years both of 
these sectors have remained some of the busiest in the Nation.
    I want to provide some perspective on the challenges facing 
our men and women at the Southwest Border. Though I cannot 
speak for all of the components of Customs and Border 
Protection, I can provide a first-hand account of the complex 
border security environment and ask for your assistance in 
helping our front-line men and women.
    In our line of work Border Patrol agents rarely know 
exactly who or what they will encounter. In a single day an 
agent may arrest a violent felon, encounter a large group of 
families and children, or rescue a drowning migrant sent in the 
river by smugglers. Of those we encounter we don't know what 
condition they are in or what their intentions may be when they 
get here.
    Less than 2 weeks ago agents working near Roma, Texas, 
arrested a Salvadoran man after he entered the United States 
illegally. Record checks revealed him as an MS-13 gang member 
with extensive criminal history in the State of New York who 
was previously deported.
    In the Rio Grande Valley sector we apprehend nearly a 
thousand people between the ports of entry each day. In fact, 
just last week our agents apprehended more than 7,000 people, 
roughly the same size as the so-called caravans that get much 
attention.
    The majority of the apprehensions are family units and 
unaccompanied children from Central America, and many travel in 
large groups of 100 or more. In addition to the high volume of 
Central Americans, we encounter people from all over the world, 
many of whom don't want to be caught. In my sector alone we 
have encountered aliens from 40 different countries, including 
Bangladesh, Turkey, Romania, and China.
    People are traveling thousands of miles across hemispheres 
to attempt to illegally enter the United States using the same 
pathways as Central Americans.
    Contrast this incoming tide of migrants with our limited 
resources and infrastructure at the Southwest Border, 
particularly in the Rio Grande Valley and Tucson Sectors. For 
example, in the Tucson Sector agents encounter large groups in 
extremely remote locations that are 2 or 3 hours' drive from 
the point of apprehension to a Border Patrol facility. We don't 
have vehicles to transport groups of large sizes, so agents are 
forced to make several trips at 5 or 6 hours in that round 
trip.
    This is further complicated by access limitations due to 
geography and roads. Simply put, traveling along the Southwest 
Border is not always a matter of point A to point B, as there 
is rugged terrain and lack of roads hinder our movements. More 
and more we spend our limited manpower on transport, 
processing, and hospital watch for aliens with increasing 
medical needs. Meanwhile, our law enforcement responsibilities 
and the safety of our agents suffer.
    During the 35-day Government shutdown, working without pay, 
Border Patrol agents in the Rio Grande Valley Sector 
apprehended more than 17,000 illegal aliens, seized more than 
15,000 pounds of marijuana and nearly 900 pounds of cocaine. 
They also located and took down 19 stash houses.
    This clearly demonstrates the commitment of our men and 
women to the mission and to upholding the laws of the United 
States.
    We ask a lot of our agents, and we must support them. They 
live and work in some of the most remote areas of the United 
States. They work in the heat of the desert and the cold of the 
Northern Border. They track criminal aliens and drug smugglers 
through harsh conditions and make multiple arrests, at times 
often alone with the nearest agent miles away.
    Despite the great work of our dedicated men and women, 
without changes to existing laws and policies we will continue 
to see an unprecedented influx of families and children. We 
know that smuggling organizations take advantage of the 
opportunity to move drugs and other contraband while our agents 
are occupied with the humanitarian influx. We need to return 
our agents to the front line to ensure the safety and security 
of our border.
    Thank you for the opportunity to speak to you today, and I 
look forward to your questions. Thank you.
    Ms. Torres Small. Thank you.
    I thank all of the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    I want to keep this focus here on retention and 
recruitment. I think hiring right now is--one of the challenges 
that I face sometimes is this is such a complex issue, and 
every time you dive in you see hot spots everywhere, but this 
is a key challenge that I think we can all gain a lot from 
focusing on.
    So I really appreciate Ms. Gambler's discussion of the GAO 
report that noted that the average number of days it takes to 
hire CBP law enforcement positions has come down over the past 
3 years. But the CBP's hiring process remains lengthy. What do 
you view is the biggest contributor to CBP's lengthy time-to-
hire rates?
    Ms. Gambler. I think the steps in the hiring process that 
take the most time include the polygraph, the medical 
examination, and a few other steps. So those are the ones that 
tend to take the longest amount of time.
    Also, the hiring process does rely on applicants to 
complete certain steps in the process, and as we were doing our 
work we did hear from CBP that that could be a challenge, as 
well.
    Mr. Huffman mentioned their applicant care pilot, which I 
think is designed in part to help applicants walk through the 
process and maybe complete some of those steps a little bit 
more timely. Certainly, Mr. Huffman could speak to that, as 
well. But there are certain steps that take longer, and there 
is also some reliance on applicants to complete parts of the 
process that they are responsible for.
    Ms. Torres Small. Are there any other improvements that you 
would suggest while still using the risk-based approach?
    Ms. Gambler. So while we did not make specific 
recommendations in this regard to CBP, it is a best practice 
for any agency to regularly assess their hiring process. So 
certainly CBP could continue to study that process, as well as 
its recruitment and retention processes, as well, to look at 
whether or not there are some additional changes that they 
could make to the steps themselves, the ordering of the steps.
    When it comes to recruitment and retention, they might also 
continue to look at the use of incentives which, at least for 
CBP officers, we were told by CBP has been fairly effective.
    Ms. Torres Small. Mr. Huffman, my district or the district 
that I serve is home to three ports of entry, Columbus, 
Antelope Wells, and Santa Teresa. Do these ports of entry, do 
you know if they have the resources and staff that they need?
    Mr. Huffman. Thank you for the question.
    For the ports of entry in those particular areas I am not 
familiar with their exact staffing numbers now. I know that the 
Office of Field Operations in general has had a lot of 
successes, probably more so than the other components in CBP at 
getting officers to these more remote areas based on using some 
of the incentives that we have talked about before.
    As far as the specific staffing levels at those ports of 
entry, I can get back to you with the information, but I don't 
know it off the top of my head.
    Ms. Torres Small. You just mentioned that there are places 
where OFO incentives have been perhaps deployed more 
effectively than other places. What do you think is the cause 
for that difference?
    Mr. Huffman. OFO kind-of took an innovative approach over 
the last couple years. They changed the way they were 
recruiting and hiring, and it had some positive effects, and I 
think there are some good lessons to be learned for the 
organization as a whole. But they started being, as we talked 
about, some more targeted hiring to some specific areas, and 
they were hiring for specific ports of entry, understanding 
what they were moving to.
    So once they kind-of focused on those particular areas, 
offered incentives to those areas, and they knew what they were 
going to get into and what they were going to get, that was 
very helpful. For example, when they were targeting the Arizona 
area, they developed a specific brochure that explained the 
community well to them.
    I think those things have borne out to be very successful, 
and I think there are lessons to learn for the agency as a 
whole to copy that pattern in different components, as well.
    Ms. Torres Small. For any of you, do you have any 
suggestions for ensuring that more rural areas are 
appropriately staffed?
    Ms. Gambler. That has been a key challenge; that is one of 
the key challenges that we highlighted in our report.
    The one example that we were able to see in our report was 
the use of some of those financial incentives, whether they 
were recruitment or retention bonuses or incentives.
    So those were some of the examples that we saw in terms of 
CBP's current practices to try to either recruit for or retain 
law enforcement officers in those more remote locations.
    Ms. Torres Small. Thank you.
    To set a good example, I will yield my time now. I now 
recognize the Ranking Member, the gentleman from Texas, Mr. 
Crenshaw, for questions.
    Mr. Crenshaw. Thank you, Chairwoman.
    Thank you all for being here again.
    I want to begin with the polygraph. Mr. Karisch, I will 
start with you. Actually, I will just let you run with that.
    I would like to hear from all of you on the polygraph 
issue. Tell me about the pilot program that came about, how it 
has been improved upon, but what more we can do.
    I did mention a bill that we are proposing soon which would 
make it easier to hire law enforcement, Federal law 
enforcement, and military with previous clearances. So can you 
expound upon how that would affect the process?
    Mr. Karisch. Yes, sir.
    So back in 2017 I had the opportunity to serve up here in 
the District of Columbia as the acting assistant commissioner 
for the Office of Professional Responsibility, who, of course, 
had oversight of the polygraph program. At that point in time 
we looked at some different formats that we could apply.
    All Federal agencies who send polygraph examiners to the 
National Center for Credibility Assessment, they all get their 
training in the same place. We were looking for something that 
could help us in that process. At that time CBP's past record 
was at about 25 percent. That is about the number of people 
that were passing the polygraph.
    In 2017 we started approaching--in 2018, in conjunction 
with the NCCA, they were able to finally get that approved and 
piloted. That was the test for espionage, sabotage, and 
corruption. That increased our actual success in the polygraph 
exams to 37 percent.
    So there was definitely an increase in efficiency with the 
polygraph because what it did is it removed some of the 
redundancies in the process, reduced some of the time of the 
actual test, but still captured all of the things that LEPET 
did, which was traditionally the test that was given to all law 
enforcement agencies when they are actually hiring personnel. 
It is a very standardized test, but TES-C has worked 
tremendously well for the organization.
    But we are also looking for additional opportunities for 
hiring flexibilities, and that is why I am very supportive of 
the bill for the waivers, which would authorize law enforcement 
officers in the State and local level who have taken a 
polygraph in the last 10 years, Federal law enforcement agents 
who are wanting to transfer into the organization, and/or 
military members who have a Top Secret, Secret, or SCI 
clearance, is to come to our organization as long as they are 
in good standing, have not had any misconduct, criminal acts. 
So, I mean, definitely something that we support, sir.
    Mr. Crenshaw. Let me just, for everybody, as well, would 
you agree a polygraph is incapable of predicting behavior, 
right? Which is really the whole point of using it to screen, 
is to be able to predict behavior. Would you agree that is 
impossible for a polygraph to do?
    Mr. Huffman. Yes, I would agree that a polygraph does not 
predict behavior. That is correct.
    Mr. Crenshaw. OK. In my limited time I want to get to the 
issue of mobility. Mr. Huffman, I will start with you on that.
    I realize that is a big issue with retention. We previously 
talked about what we have done already and what more can be 
done to ensure that our agents have the option of going to the 
places they want to go. I will let you take it from there.
    Mr. Huffman. Thank you, sir.
    Yes, that is speaking specifically about Border Patrol for 
now, but I think it applies a little bit across the board, and 
I think it gets back to a little bit of the challenges with the 
rural area that the Chairwoman mentioned earlier.
    Border Patrol did a, trying to address retention interests, 
they did a human capital study years ago and determined that 
the lack of mobility was a big challenge. The Border Patrol 
agents loved the job, they loved what they were doing, but 
living in these remote areas they needed to see an end, they 
needed to see someplace out, and for a long time there just 
wasn't one. We didn't have the ability to offer those 
opportunities.
    So a couple years ago the Border Patrol implemented an 
operation mobility program that does offer that now, and it is 
based on a seniority-based, it is negotiated with the union, 
seniority-based tier that allows them the opportunity to move 
to areas more to their liking. So if you say you start off in 
Presidio, Texas, or in Ajo, Arizona, you the job, you love what 
you are doing, the spouse may not love the job, the spouse may 
not love what you are doing or the conditions you are living 
in, at least you have that hope, that opportunity a few years 
down the road to move to a more desirable location.
    We think that is going to help us get after some of our 
retention issues, as well. We just started that last year, so 
it is kind-of early to tell exactly how effective it is going 
to be yet. But the information so far is that it has been 
received very positively by the work force and gives that hope, 
that opportunity to go somewhere else and still serve as a U.S. 
Border Patrol agent.
    Mr. Crenshaw. Thank you very much. I yield.
    Ms. Torres Small. Thank you.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules, I will recognize Members who were present at 
the start of the hearing based on seniority on the committee, 
alternating between Majority and Minority. Those Members coming 
in later will be recognized in the order of their arrival.
    The Chair recognizes for 5 minutes the gentlewoman from 
Nevada, Ms. Titus.
    Ms. Titus. Thank you very much, Madam Chairman.
    I just would ask you briefly, do you have any statistics on 
the demographics of the work force that might reflect diversity 
or lack thereof?
    Mr. Huffman. I don't necessarily have those statistics with 
me at this moment, although the Customs and Border Protection 
strives hard to have a diverse work force. Not knowing the 
numbers exactly, I know the Border Patrol is probably one of 
the largest Federal law enforcement organizations that the 
majority of the employees are minority employees. I don't know 
if that translates across CBP as a whole, but it is a 
significant part of the work force. I can get those specific 
statistics for you, though, and get back with you on those.
    Ms. Titus. That would be great. I would be curious to know 
about the number of veterans, too, and what you do specifically 
to reach out to hire veterans, because we often hear they come 
back and don't have a way to use the skills that they learned 
on the front back at home. So this seems like it might be a 
place where they would be----
    Mr. Huffman. I am glad you asked that question, because 
that is an area that we are very proud of our efforts in that 
area.
    Of the CBP work force overall, 30 percent are veterans, and 
we do some very specific targeted hiring from the veteran 
parts. Between fiscal year 2010 and fiscal year 2019, CBP hired 
over 1,000 veterans through the Veterans' Readjustment Act, the 
VRA. Similarly, we hired over 450 veterans through the Veterans 
Employment Opportunity Act. CBP won the Monster.com for best 
companies for veterans. There was a point I think last February 
when that was announced.
    So we reach out to the veteran organizations. We work with 
the different military bases through their TAP system, the 
Transition--I forget exactly what that means--but to target 
veterans, and we think that is a great source for our work 
force. Those are the type of folks that transition to the type 
of work we do quite well.
    So we aggressively get after veteran hires. We always can 
do more, I am sure, and we look for opportunities to do that. 
But that is a great place for us to go, and we exploit that as 
much as possible.
    Ms. Titus. I am glad to hear that.
    I represent Las Vegas and McCarran Airport, and we are 
trying very hard to attract additional international flights, 
as I know other airports are. So we have had a problem, though, 
because as we get new air service, Customs and Border 
Protection says that they don't have enough staff available, or 
they can only work after 10 o'clock, which is their schedule. 
Or places like Reno who want to have seasonal employees to 
bring international travelers say during the ski season there 
is not enough flexibility there to set up that kind of program.
    Can you talk to us about how we can make you more flexible 
so you could be more accommodating and you wouldn't stop the 
development of international tourism but rather help us to 
promote it?
    Mr. Huffman. Yes, ma'am, I appreciate your question.
    I know that the Office of Field Operations has a staffing 
model they use to help try to establish requirements and 
predict future requirements in those processes.
    As far as the specifics of that airport I am not as 
familiar as I probably should be kind-of just taking over this 
role, but I will be glad to look into that and get back with 
you on that. I know that currently the staffing at that airport 
is at 93 percent, so they are staffed up for what they think 
they need or almost there.
    If that needs to be more, again, that is a discussion we 
can have with the Office of Field Operations leadership and see 
what that is and how that fits into the overall strategy and 
staffing plans.
    Ms. Titus. If you can help me with that I would appreciate 
it. It is not always more, it is how you use what you have so 
that you make it more accommodating to the kind of schedules, 
because international flights come in maybe in the middle of 
the night to Las Vegas. You know, we operate around the clock 
there, so we need that kind of flexibility.
    One other thing, though, that concerns me is that some of 
the members from that work force have been taken away for 
temporary duty assignments at the border. They come back and 
say there is not really an emergency at the border, we could 
have been here helping where we belong.
    Can you address that policy, how you make that decision, 
and why it is a good use of our manpower?
    Mr. Karisch. Well, I will take that question.
    Being down on the border in places like Nogales where I was 
previously and even in my current assignment out in RGV, I 
recognized that OFO actually has a huge job to do with legal 
trade and travel, a lot of commercial vehicles that are coming 
into the country. They deal with inadmissible aliens. They deal 
with a lot of hard drugs. Now they are also having to deal with 
the asylum folks that are coming in.
    So it is a draw on manpower for them because they have all 
of their other functions that they still have to perform, so 
they have to augment it with resources from other parts of the 
country. I know that is never popular when they have to reach 
into other places in the United States to bring down people, 
but it is a requirement based on the flow of what we are 
getting down there and in addition to the job that they already 
have to perform on the Southwest Border.
    Ms. Titus. It is unfortunate. I hope we find some other way 
to deal with it.
    Thank you, Madam Chairwoman.
    Ms. Torres Small. Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Gentlemen, madam, thank you for being here today.
    Mr. Huffman, congratulations. You stated earlier it is the 
first time in 6 years that you have managed to hire more 
personnel than you have lost through attrition. This is to be 
attributed to your focus and your devotion, sir, and that of 
your people, streamlined hiring process. I am particularly 
uplifted to hear about the mobility program. These men and 
women work in very remote areas. That is tough. That is a tough 
gig. I have known some of those men and women, and it can be 
difficult on a family.
    Chief Karisch, today we have heard about some of the 
challenges facing your mission, including staffing and funding 
shortages. There are serious problems with the recruitment, 
hiring, and retention of qualified agents. We all concur. I 
look forward to looking into those further.
    Today I would like to ask you a little bit about morale. I 
have talked to agents and officers in the field, and they have 
told me just man-to-man, heart-to-heart, cop-to-cop, it is 
demoralizing to them to hear politicians in the District of 
Columbia and elsewhere attack their mission or condemn their 
mission to protect and serve this country by securing our 
border and the sovereignty of our border and enforcing our 
immigration laws.
    What is troubling to me are the politicians who would blame 
the patriots who put their lives on the line every day to serve 
the country and enforce the law, as opposed to addressing the 
laws themselves.
    Wouldn't you say that elected officials should take action 
through the legislative process and change the laws, instead of 
disparaging the men and women responsible for enforcing the 
laws?
    Mr. Karisch. So, sir, I will start off by saying that we 
have a very committed work force out there. I mean, I have seen 
that from so many fronts in over 30 years in this organization.
    But I will even point you to something specific. During the 
recent Government shutdown that we had, I mean, we had people 
that stepped up, no massive sick-outs in the Border Patrol, 
people who stepped up, recognized the importance of what they 
did to their communities, to their countries in serving. I saw 
over and over again where our men and women are committed.
    Is it frustrating for them to hear? Absolutely. But we are 
also professionals, we know that we have a job to do, and we 
try to stay out of the political fray sometimes. But at the end 
of the day recognize that those men and women out there are 
very dedicated, they make me very proud every day in what they 
do out there in helping secure this country for the good of 
everyone in this room.
    Mr. Higgins. They should be recognized as the professionals 
that they are. So thank you for your service and for that 
clarification.
    Some of these men and women that I have talked to and wear 
uniforms like yours I would say represent some of the finest 
examples of American love and compassion and patriotism that I 
have ever met. So they should be recognized, and they should be 
acknowledged. We as elected officials should just take a deep 
breath.
    If the laws need to be changed, Madam Chairwoman, let us 
change them. But in the mean time let us support the law 
enforcement professionals that are tasked with upholding those 
laws.
    Chief Karisch, regarding funding, some of my colleagues 
supported zeroed-out funding for Border Patrol agents in the 
fiscal year 2019 appropriations bill, yet we are discussing 
staffing and funding shortages. Could you use more agents in 
the RGV Sector?
    Mr. Karisch. Yes, sir, I think we can use them across the 
entire Southwest Border.
    Mr. Higgins. I agree. Let me ask you--I am on limited time 
here--how are staffing shortages affecting the agents' work-
life balance? This relates back to retention. You know, when 
you are asked to work more and do more with less this affects 
the work-life balance. Can you discuss in our remaining time 
how that impacts retention for your very professional agents?
    Mr. Karisch. Well, I mean, our work force is getting 
exhausted. As I talked about previously, 7,000 apprehensions 
last week. So you can imagine that I am taking 20 percent of my 
work force in the Rio Grande Valley Sector right now, assigning 
them to processing, to transportation, to hospital watch, and 
we haven't even gotten into the summer season. We will all be 
asked to do more on the humanitarian front on the rescues.
    So, I mean, it depletes the work force of what we are 
supposed to be doing. But at the end of the day it is also 
exhausting for our personnel in operating at a high tempo, and 
that is what we are operating under right now, sir.
    Mr. Higgins. Thank you for that clarification again.
    So, Madam Chairwoman, if we have a second round of 
questions, I have a question for----
    Ms. Torres Small. I apologize. The gentleman is out of 
time. Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
Texas, Mr. Taylor.
    Mr. Taylor. Thank you, Madam Chair.
    Thank you for being here. I appreciate your time.
    As a young marine second lieutenant my first assignment was 
actually as part of Joint Task Force Six, where I served along 
the U.S.-Mexican border side-by-side with Border Patrol members 
interdicting drugs, and certainly watched a lot in that 
assignment and that experience.
    Something that I did not see in that time as a young second 
lieutenant but I have heard about is that Border Patrol agents 
are finding children who are coming across with the same adults 
over and over and over again. So you have adults it appears to 
be taking advantage of the unaccompanied minor provisions we 
have who are then in turn asking for sanctuary. The children 
are then being trafficked back into Mexico to come with another 
adult as an unaccompanied minor again and again and again.
    This is obviously tragic. It is wrong. Can you speak to 
that?
    Mr. Karisch. Yes, sir. I don't have any hard statistics 
from that, but in talking to my people in both locations we 
know that that happens. We know that there are people right now 
that are exploiting the current process in knowing that because 
of the Flores settlement that ICE or HHS can't detain family 
units with children for more than 20 days.
    So the fact is we have seen children come back through with 
different groups claiming to be their relatives. So that is a 
dynamic that is occurring on the border. But we would 
definitely like to get something back on the record for you 
from the agency.
    Mr. Taylor. Are you able to document the identities of 
these children? Can you get fingerprints? Can you do some kind 
of biometric way to say, ``Hey, wait a minute, you were here 
previously, a week ago, a month ago, a year ago, with somebody 
else, you were saying you were a different name, you are not''? 
Are you able to get biometric information so you can find these 
people a second time?
    Mr. Karisch. Unfortunately, we can't fingerprint children 
under 14. But, I mean, we work very closely with consular 
officials from different countries. Many times the individuals 
that we encounter have no documentation whatsoever, so we are 
having to rely on word of mouth of who they are telling us they 
are.
    But we have seen several situations out there where people 
that are claiming to be relatives to children and even other 
families are not, in fact, those people.
    So it is that deep dive, it is the interviews that we have 
to do, but it is very difficult because we cannot fingerprint 
under 14.
    Mr. Taylor. So for those of us that are against human 
trafficking, that are upset by the idea of children being 
exploited in this way, which is just really terrible, what is 
preventing you from gathering the biometric information to stop 
this kind of horrific human trafficking?
    Mr. Karisch. I mean, we gather as much information as we 
can, but because of the law we cannot fingerprint children.
    Mr. Taylor. So you are statutorily prohibited from 
gathering this biometric information?
    Mr. Karisch. Yes.
    Mr. Taylor. OK. So there is a flaw in the law, which then 
human smugglers are exploiting for the purpose of human 
trafficking. Is that a fair statement?
    Mr. Karisch. I think that they know exactly what our gaps 
are in a lot of areas, whether it is on the enforcement or 
whether it is on the legal side of what they do. We are seeing 
the use of children to exploit our current system of law with 
immigrations here in the United States.
    Mr. Taylor. So if we were to change that law you then would 
be able to actually gather the biometric information to then 
stop children being exploited by these smugglers, by these 
human smugglers, to then get people across the border?
    Mr. Karisch. Well, don't get me wrong, we gather 
information other than actually fingerprinting them, we do 
gather other information that will, of course, help us in the 
investigation of when we see that. I mean, we have a very 
robust data system that will allow us to try to verify 
information, working with different consular offices also 
throughout the world to make sure we have good understanding or 
identification of these people. But any tools that we can get 
that will help us are going to make our jobs a lot easier.
    Mr. Taylor. Well, thank you for spelling this out and going 
on the record, because I think it is important, again, that we 
stand united against human trafficking, that we stop people are 
that trying to smuggle and exploit children. Clearly there is a 
loophole in our law that was probably well-intentioned at the 
time that it was passed into law, but clearly is being used for 
really despicable purposes.
    With that, I yield back.
    Ms. Torres Small. Thank you.
    Before we shift to the next panel, I thank the witnesses 
for their testimony. I will now call up the second panel of 
witnesses.
    While we are doing that I just want to remind folks that 
the hearing today is on retention and recruitment for CBP. This 
is one of those issues that I think the more you start picking 
at different threads, the more you see the overall challenge. 
But as much as we can focus on the task at hand I would really 
appreciate it. I think that is how often we can create the most 
bipartisan solutions.
    Ms. Torres Small. I now welcome the second panel of 
witnesses.
    Our first witness, Mr. John Goodman, is the chief executive 
of Accenture Federal Services. Mr. Goodman has held a variety 
of leadership roles since joining Accenture in 1998. Prior to 
joining Accenture he served for 5 years in Federal Government 
as the deputy under secretary of defense, deputy assistant 
secretary of defense, and as a staff member of the National 
Economic Council.
    Second, Mr. Anthony ``Tony'' Reardon serves as the national 
president of the National Treasury Employees Union. NTEU 
represents 150,000 Federal employees, including CBP officers 
who work for CBP's Office of Field Operations. In his role as 
national president, Mr. Reardon serves as a spokesperson for 
the union, representing NTEU before the media, Congress, and 
agency leadership.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his statement for 5 minutes, beginning with Mr. Goodman.

   STATEMENT OF JOHN B. GOODMAN, CHIEF EXECUTIVE, ACCENTURE 
                        FEDERAL SERVICES

    Mr. Goodman. Thank you. Chairwoman Torres Small, Ranking 
Member Crenshaw, and Members of the subcommittee, thank you for 
inviting me to testify today. I am John Goodman, chief 
executive of Accenture Federal Services, or AFS.
    I am pleased to discuss AFS' work with the U.S. Customs and 
Border Protection and specifically to share our insights on the 
innovative approaches we are taking to tackle CBP's long-
standing problem of recruiting and hiring, the progress we have 
made, the challenges we have encountered, and the value we are 
providing to help CBP meet its goals.
    AFS has been a valued partner to the U.S. Federal 
Government for more than 4 decades. As someone who served in 
leadership roles in the Federal Government, I am honored to 
lead an organization of 9,000 professionals who have the 
singular purpose of helping Federal agencies solve their 
toughest challenges.
    For example, through our work at the Defense Logistics 
Agency we have helped them more effectively deliver goods and 
services needed by our servicemen and servicewomen around the 
world. We have helped the Transportation Security 
Administration recruit and hire 12,000 individuals in 2018 to 
make air travel safer. We have worked with the Department of 
Veterans Affairs to bring the most innovative technologies to 
advance quality medical care for our veterans.
    We are focused today on CBP contracts to recruit and hire 
Border Patrol agents, Customs and Border Protection officers, 
and Air and Marine interdiction agents. Applicants, as we have 
heard, undergo a rigorous 12-step hiring process that includes 
an entrance exam, medical and physical tests, and a polygraph.
    At the time of contract award CBP needed to recruit more 
than 130 initial applicants just to successfully hire one 
Border Patrol agent. The innovative contract structure 
incentivized AFS to build a high-quality applicant pipeline and 
increase the number of hires. This contract was very favorable 
both to the agency and the taxpayer. Approximately 93 percent 
of the dollars to AFS could only be paid as new agents are 
hired and enter on duty.
    Since contract award we have designed and implemented 
important innovations for CBP, including a new hiring and 
recruiting system, a digital marketing and advertising 
campaign, an applicant care or customer relationship management 
system, and two new U.S.-based call centers that are fully 
accredited to CBP security standards.
    These innovations enabled AFS to develop a talent network 
of more than 100,000 candidates and a full recruitment and 
hiring capability that has processed over 4,000 applicants 
through various hiring steps as of December 2018.
    In short, AFS helped lay a foundation for a modern state-
of-the-art process that is delivering results.
    Unfortunately, recent media reports and an IG report have 
painted an inaccurate and an incomplete picture of our contract 
performance. We agree with CBP that the IG's report 
mischaracterizes the contract and ignores our progress.
    This is a performance-based, per-hire contract. We receive 
payment, approximately $40,000 per hire, only when we hire CBP 
agents and officers. Eighty percent of that payment is made 
when the applicant accepts the offer, and the remaining 20 
percent is paid once the applicant enters on duty.
    CBP issued its first task order for approximately 600 hires 
in November 2017, and an additional 400 hires were tasked in 
September 2018. As of December 3, we had about 4,000 applicants 
in the process and 56 accepted job offers, for which we 
received about $2 million. The only guaranteed payments to AFS 
were tied to startup, security, and transition costs, and to 
date AFS has been paid approximately $19 million related to 
these requirements, including our recruiting and applicant care 
systems that are reusable and will permit CBP to continue to 
attract qualified applicants.
    Although we were bringing a sufficient number of applicants 
into the pipeline to deliver the required hires to meet our 
actual task orders, our projections at the end of last summer 
identified some obstacles in the hiring process in the future, 
and as a result our forecasted hiring time lines did not show 
the desired acceleration in the hiring process that CBP and we 
both desired. We immediately engaged with CBP to address these 
challenges and we are continuing to work with CBP to determine 
how we can best support their mission.
    In conclusion, I would like to leave you with three 
thoughts.
    First, AFS delivered real value to CBP by developing and 
deploying leading commercial capabilities to support the 
recruiting process.
    Second, AFS has not been paid for any services we did not 
provide.
    Third, we are working closely with CBP, as we have done 
from Day 1, as it considers the best path forward. We are 
committed to our clients and the success of their mission. We 
always strive to meet their goals.
    Thank you, and I welcome your questions.
    [The prepared statement of Mr. Goodman follows:]
                 Prepared Statement of John B. Goodman
                             March 7, 2019
    Chairwoman Torres Small, Ranking Member Crenshaw, Members of the 
Subcommittee on Oversight, Management, and Accountability, thank you 
for inviting me to testify today. My name is John Goodman, and I am the 
chief executive of Accenture Federal Services, or AFS. I am pleased to 
be here today to testify about AFS's work with U.S. Customs and Border 
Protection. This is an important and multifaceted project. I appreciate 
the opportunity to share our insights into the innovative approaches we 
are taking to tackle a long-standing problem, the progress we have 
made, the challenges we have encountered, and the refinements we are 
making to help CBP meet its goals.
    AFS has been a valued partner to the U.S. Federal Government for 
more than 4 decades. Every day, the 9,000 people of AFS work side-by-
side with thousands of dedicated public servants to solve their 
toughest challenges at the heart of our Nation's priorities, from 
National defense to health care access and quality. We bring together 
innovation, the latest technology, and leading commercial practices so 
our Federal clients can make a real and positive impact on how 
Americans work and live. As someone who served in various leadership 
roles in the Federal Government, I consider it an honor to lead an 
organization that has the singular purpose of helping Federal 
departments, agencies, and offices perform their missions. For example, 
I'm proud to say that, through our work, the Army can better manage its 
finances, and the Defense Logistics Agency can more effectively deliver 
goods and services needed by our servicemen and -women around the 
world. I am also proud of the work AFS has done with the Department of 
Veterans Affairs to bring the most innovative technology solutions to 
advance and optimize quality medical care for our Nation's veterans. 
And we have helped the Transportation Security Administration recruit 
and hire 12,000 positions in 2018 to make air travel safer. Work like 
this is squarely within our mission at Accenture: To improve the way 
people live and do business, making processes more efficient and 
technology more effective.
    The subcommittee today is focused on CBP's efforts to recruit, 
hire, and retain Border Patrol agents, Customs Border Protection 
officers, and Air and Marine Interdiction agents. These are important 
positions essential to protect the homeland. As one might expect, the 
hiring process is rigorous and lengthy. Applicants must successfully 
navigate 12 steps in the hiring process, where they must meet physical 
requirements, pass an entrance exam, undergo an interview, pass a drug 
test, complete a background investigation, and undergo a polygraph 
examination. At the time we were awarded a contract to assist CBP with 
recruitment and hiring, more than 130 initial applicants were needed to 
successfully hire 1 Border Patrol agent.
    CBP engaged AFS through an innovative contract structure that 
incentivized AFS to use commercial best practices and new technologies 
to build a high-quality applicant pipeline and increase the number of 
hires. This contract was very favorable to both the agency and 
taxpayer, in that approximately 93 percent of the dollars to AFS could 
only be paid as new agents are hired and report for duty. Subsequent 
contract modifications also enabled the new technology solutions that 
we developed to be tailored to additional CBP needs at no additional 
cost to the Government.
    Since the contract was awarded, AFS has delivered significant 
capabilities, and we are fully operational in accordance with the 
contract terms. The team has designed and implemented a number of 
important innovations for CBP, including:
  <bullet> A hiring and recruitment platform that included a Talent 
        Network of recruits for CBP front-line officer and agent 
        positions;
  <bullet> A Digital Marketing and Advertising Campaign, with new 
        creative materials, digital advertising, and on-line 
        interaction capabilities, that is targeting potential 
        candidates and driving improvements in the effectiveness of AFS 
        and CBP marketing investments;
  <bullet> A Customer Relationship Management (CRM) platform that 
        allows AFS to provide on-going regular applicant care to engage 
        with applicants throughout a 300-plus day hiring cycle; and
  <bullet> Two new call centers that are fully accredited to CBP 
        Security Standards that support applicants processed by AFS and 
        CBP.
    As a result of these efforts, AFS has developed a Talent Network of 
more than 100,000 candidates, and a full recruitment and hiring 
capability that has processed 4,795 applicants through various hiring 
steps as of December 1, 2018. In short, AFS helped lay a foundation for 
a modern, state-of-the-art hiring process that is today delivering 
results for CBP. One result was a significant improvement in the hiring 
ratio of applicants to job offers, which was achieved through the joint 
efforts of AFS and CBP.
    Unfortunately, recent media reports, as well as a DHS inspector 
general report, have painted an inaccurate and incomplete picture of 
AFS's performance under the contract. We share the concerns expressed 
by CBP that the inspector general's report mischaracterizes the nature 
of the contract and the progress made on this project, while ignoring 
the real and lasting value we have provided to CBP.
    This is a performance-based contract. It is based on a pay-per-hire 
model under which AFS receives payment only when it hires CBP agents 
and officers. As noted, 93 percent of the overall contract is not 
guaranteed. More specifically, AFS receives approximately $40,000 per 
agent or officer hire. The payment is tied to reaching key milestones: 
80 percent of the $40,000 is paid when the applicant accepts the offer, 
and the remaining 20 percent is paid once the applicant reports for 
duty. To date, approximately $2 million was in performance fees for 
attracting and processing 56 individuals who accepted job offers with 
CBP.
    The only part of the contract that is guaranteed to AFS are 
payments specifically tied to start-up, security, and transition costs, 
and to date, AFS has been paid approximately $19 million related to 
these transition and security requirements, including building an 
infrastructure for CBP to better market to, track, and serve 
applicants. This technology is reusable and will permit CBP to attract 
a larger number of qualified applicants who are receiving more 
personalized support and staying in the recruiting process longer. We 
understand that CBP is now using these innovations and the recruitment 
technology that we have introduced for all of their applicants in other 
hiring efforts and will continue to be able to do so in the future.
    That said, by the end of last summer, our forecasted hiring time 
lines did not show the acceleration in the hiring process that both CBP 
and AFS wanted to see. We immediately engaged with CBP to address these 
challenges, and we are continuing to work in partnership with CBP to 
determine how we can best support their mission.
    In conclusion, I would like to leave you with three thoughts. 
First, AFS delivered real value to CBP by developing and deploying 
leading commercial capabilities to the recruiting process, which CBP 
can still use even if our role in the hiring process changes. Second, 
we want to reiterate that AFS has not been paid for any services we did 
not undertake, or any accomplishments that we did not achieve. Third, 
we are working closely with CBP, as we have done from Day 1, as it 
considers the best path forward. We are committed not just to our 
clients but to theirs and yours--the taxpayer. We will always strive to 
meet their goals.
    Thank you, and I am happy to answer your questions.

    Ms. Torres Small. Thank you for your testimony.
    I now recognize Mr. Reardon to summarize his statement for 
5 minutes.

 STATEMENT OF ANTHONY M. REARDON, PRESIDENT, NATIONAL TREASURY 
                        EMPLOYEES UNION

    Mr. Reardon. Good afternoon, Chairwoman Torres Small and 
Ranking Member Crenshaw and committee Members. Thank you very 
much for the opportunity to testify on behalf of over 27,000 
front-line Customs and Border Protection officers, agriculture 
specialists, and trade enforcement specialists at CBP.
    These men and women are proud and they are extraordinarily 
mission-focused. They work at 328 U.S. air, sea, and land ports 
of entry and at preclearance operations overseas. They ensure 
the efficient processing of legitimate trade, travel, and 
asylum seekers who present themselves at the ports of entry and 
stop illicit trafficking of people, drugs, weapons, and money.
    As I have testified in the past, the border security issues 
of utmost concern to CBP Office of Field Operations employees 
are the hiring and funding challenges that contribute to the 
ports of entry being chronically understaffed. CBP officers' 
safety and morale are negatively impacted by these staffing 
shortages and lead to, among other things, excessive overtime 
requirements and temporary duty assignments to the Southwest 
Border ports.
    There is no greater roadblock to border security than the 
lack of sufficient staff at the ports, and the current CBP 
officer shortage is staggering.
    NTEU applauds Congress for funding, after a devastating 35-
day partial Government shutdown, 600 new CBP officers in the 
fiscal year 2019 funding deal. But with 1,600 vacant positions 
and 1,900 positions not yet funded that leaves a total staffing 
shortage of 3,500 CBP officers.
    The economic cost of this shortage is also staggering. 
Understaffed ports lead to long delays in travel and cargo 
lanes. According to CBP, for every 33 additional CBP officers 
hired, the United States could potentially gain over 1,000 
private-sector jobs. That means if Congress fully staffed the 
ports it could lead to the creation of 106,000 private-sector 
jobs.
    Understaffed ports also create a significant hardship for 
front-line employees. Both involuntary overtime and involuntary 
work assignments far from home disrupt CBP officers' family 
lives and destroys morale.
    With CBP officer attrition hovering around 4 percent 
Congress must direct CBP to use all recruitment and retention 
tools at their disposal. However, NTEU did not support CBP's 
decision to award a multimillion-dollar contract to augment 
CBP's hiring process. NTEU, rather, believes that this money 
could be better spent by utilizing available pay flexibilities 
to incentivize new and existing CBP officers to seek vacant 
positions at hard-to-fill ports of entry. We are relieved to 
learn that CBP is negotiating an end to this costly and 
wasteful contract.
    Even though they are severely understaffed, the results of 
CBP officers' drug interdiction efforts is indisputable. For 
example, this past January CBP officers made the biggest 
fentanyl seizure ever, capturing nearly 254 pounds of the 
deadly synthetic opioid at the Nogales port of entry.
    According to the DEA, just 2 milligrams of fentanyl is 
considered a lethal dose. CBP estimates that its officers 
confiscated in this one seizure alone enough fentanyl to kill 
57 million people. That is more than the combined population of 
the States of Illinois, New York, and Pennsylvania. The street 
value for the amount of fentanyl seized was over $102 million.
    It is vital that Congress continue to authorize and fund 
additional staffing to ensure CBP officers can continue to 
succeed in this important work.
    But I do want to be very clear, NTEU strongly supports 
border security, and that is why we fought for many, many years 
for additional funding to increase CBP's staffing at the ports 
and to fix the hiring process so employees can be brought on 
more quickly. We have fought for better equipment, pay, and 
benefits for all CBP employees. All of these things contribute 
to a strong border.
    The CBP employees I represent are frustrated that the 
administration does not seem to recognize that securing the 
ports of entry is just as vital to border security as securing 
the borders between the ports of entry and that the ports are 
an economic driver to the U.S. economy.
    NTEU applauds Congress for making a downpayment to reduce 
the critical CBP officer staffing gap by funding 600 new hires 
in the fiscal year 2019 funding bill, but that is just a start. 
It is imperative that Congress continue to authorize and fund 
additional new CBP officers and that CBP use all recruitment 
and retention tools at their disposal.
    Thank you very much, and I look forward to answering any 
questions.
    [The prepared statement of Mr. Reardon follows:]
                Prepared Statement of Anthony M. Reardon
                             March 7, 2019
    Chairwoman Torres Small, Ranking Member Crenshaw, and distinguished 
Members of the subcommittee, thank you for the opportunity to speak 
today. As president of the National Treasury Employees Union (NTEU), I 
have the honor of leading a union that represents over 27,000 Customs 
and Border Protection (CBP) officers, agriculture specialists, and 
trade enforcement personnel stationed at 328 land, sea, and air ports 
of entry across the United States and 16 Preclearance stations 
currently in Ireland, the Caribbean, Canada, and United Arab Emirates 
airports. CBP's Office of Field Operations (OFO) pursues a dual mission 
of safeguarding American ports, by protecting the public from dangerous 
people and materials, while enhancing the Nation's global and economic 
competitiveness by enabling legitimate trade and travel. CBP OFO 
employees are responsible for border security, including anti-
terrorism, immigration, anti-smuggling, trade compliance, and 
agriculture protection at U.S. ports of entry.
    In addition to CBP's trade and travel security, processing and 
facilitation mission, CBP OFO employees at the ports of entry are the 
second-largest source of revenue collection for the U.S. Government. In 
2018, CBP processed more than $2.6 trillion in imports and collected 
approximately $4 billion in duties, taxes, and other fees. That is why 
it is critically important for this subcommittee to address the issue 
of CBP understaffing.
    For years, NTEU has been working with the administration and 
Congress to try and improve recruitment and retention at Federal 
agencies, especially those individuals with hard-to-find critical 
skills and areas with critical staffing needs. However, shutting down 
the Government and making Federal workers go without pay while 
implementing a pay freeze does nothing to help with this effort.
    For 35 days, over 800,000 Federal employees, including 27,000 at 
CBP OFO missed 2 paychecks that jeopardized their families' financial 
stability. Those who were required to work without pay had limited to 
no ability to earn additional income with part-time work and were 
unable to get unemployment benefits. Furthermore, some who worked 
unpaid were required to make prompt payments on official Government 
purchases made on their Government-issued credit cards while the 
Federal Government was shut down and unable to reimburse them. This 35-
day shutdown was hard on all employees, but especially so for those 
with the least means, who could not float Government purchases or live 
on savings while they went without their paychecks. This was an 
unconscionable way to treat the dedicated employees who serve the 
American people.
    NTEU appreciates that Congress agreed on a funding bill that not 
only granted all Federal employees a pay raise, but also funded 600 new 
CBP officer hires that are desperately needed. Having met with 
thousands of CBP officers at the ports of entry, I can tell you that 
the No. 1 CBP workforce challenge from the CBP OFO employee perspective 
is the critical staffing shortage at the ports of entry, and this 
staffing shortage is staggering. Understaffed ports lead to long delays 
in travel and cargo lanes and also create significant hardship and 
safety issues for front-line employees. Involuntary overtime and 
involuntary work assignments far from home disrupts CBP officers' 
family life and destroys morale.
    With the addition of fiscal year 2019 funding for 600 new CBP 
officers plus an existing 1,000 vacant funded CBP officer positions, 
CBP now has 1,600 vacancies. According to CBP's updated analytic 
workload staffing model (WSM), an additional 1,900 CBP officers and 721 
agriculture specialists need to be funded and hired in order to meet 
current staffing needs, bringing the total CBP officer staffing 
shortage to 3,500 today.
    The more than 27,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs, and our economy safe from illegal trade, 
while ensuring that legal trade and travelers move expeditiously 
through our air, sea, and land ports. But front-line CBP officers and 
agriculture specialists at our Nation's ports of entry need relief.
    The economic cost of the CBP OFO staffing shortage is also 
staggering. CBP employees at the ports of entry are not only the front 
line for illegal trade and travel enforcement, but their role of 
facilitating legal trade and travel is a significant economic driver 
for private-sector jobs and economic growth. According to CBP WSM data, 
for every 1,000 CBP officers hired there is an increase in the Gross 
Domestic Product (GDP) of $2 billion; $642 million in opportunity costs 
are saved (the quantification of time that a traveler could be using 
for other purposes than waiting in line, such as working or enjoying 
leisure activities); and 33,148 annual jobs are added. If CBP filled 
the 1,600 vacant positions and Congress funded the additional 1,900 
needed new positions, the impact could be as high as a $7 billion 
increase in GDP; a $2.25 billion savings in opportunity costs; and the 
creation of 106,000 new private-sector jobs.
    Also, according to the Joint Economic Committee (JEC), the volume 
of commerce crossing our borders has more than tripled in the past 25 
years. Long wait times lead to delays and travel time uncertainty, 
which can increase supply chain and transportation costs. According to 
the Department of Commerce, border delays result in losses to output, 
wages, jobs, and tax revenue due to decreases in spending by companies, 
suppliers, and consumers. JEC research finds border delays cost the 
U.S. economy between $90 million and $5.8 billion each year.
    Noting the positive impact of hiring additional CBP officers, it is 
troubling that the President's 2017 Border Security Executive Order and 
his subsequent budget requests did not ask for one additional CBP 
officer new hire. In 2017, CBP officers at the ports of entry recorded 
over 216,370 apprehensions and seized over 444,000 pounds of illegal 
drugs, and over $96 million in illicit currency, while processing over 
390 million travelers and $2.2 trillion in imports through the ports. 
Imagine what they could do with adequate staffing and resources.
    The risk of successful incursions through the ports of entry by 
terrorists, smugglers, and other criminals increase when ports are 
under constant pressure to limit wait times while working short-
staffed. As port traffic increases, it will become more difficult for 
CBP officers and agriculture specialists to stop bad actors and bad 
things from coming through the ports without significantly increasing 
wait times, which will harm legal international trade and travel.
                    cbp officer staffing challenges
    NTEU continues to have significant concerns about the slow pace of 
hiring at CBP. CBP struggled to fill the initial 2,000 positions 
Congress authorized in 2014. One factor that may be hindering hiring is 
that CBP is not utilizing to its full extent available pay 
flexibilities, such as recruitment, retention, and relocation 
incentives (3 Rs) and special salary rates, to incentivize new and 
existing CBP officers to seek vacant positions at hard-to-fill, remote 
ports, such as Columbus, New Mexico. When using a recruitment incentive 
to attract employees to a certain location, CBP must be mindful that 
this incentive should be used in conjunction with retention incentives. 
Otherwise, a situation is created where a newly-hired employee is 
working side-by-side with a veteran employee that not only is denied 
the opportunity to transfer out, but may also now be paid less than a 
new recruit. The 3 Rs are also needed to attract transfers to the most 
severely short-staffed ports, such as San Ysidro and Nogales.
    Another major impediment to fulfilling CBP's hiring goal is that 
CBP is the only Federal agency with a Congressional mandate that all 
front-line officer applicants receive a polygraph test. Until last year 
when CBP initiated a polygraph pilot, 2 out of 3 applicants failed its 
polygraph--about 65 percent--more than double the average rate of 8 law 
enforcement agencies according to data provided to the Associated 
Press, which had an average failure rate of 28 percent. For example, 
only 36 percent of applicants failed the polygraph test at the U.S. 
Drug Enforcement Administration in the past 2 years.
    NTEU does not seek to reduce the standards used by CBP in their 
hiring process, but believes that there is a problem with how the 
polygraph is currently administered. CBP reviewed its polygraph policy 
to understand why CBP is failing applicants at a much higher rate than 
individuals applying to work at other Federal law enforcement agencies 
and is currently piloting a change in the CBP polygraph test, which 
appears to be resulting in improved passage rates. Since the pilot has 
shown a polygraph passage rate that is more in line with other Federal 
law enforcement agencies, NTEU supports ending the pilot and CBP 
adopting this polygraph test for all CBP applicants.
    NTEU also recommends that CBP allow immediate polygraph retesting 
opportunities to those with a ``No Opinion'' or ``Inconclusive'' 
result, including those with a ``No Opinion Counter Measures'' finding.
    NTEU commends Congress for including a provision in the fiscal year 
2019 Defense authorization bill that authorized the CBP Commissioner to 
waive polygraph examination requirements for certain veterans applying 
for CBP job openings. NTEU also supports legislation that expands the 
authority to waive polygraph examinations for veterans and to allow 
exemptions for existing State and local law enforcement officers who 
apply for these positions at CBP.
    In addition to issues with the polygraph process, NTEU has heard 
that CBP candidates frequently are subject to a segmented hiring 
process where, in some cases, they are required to travel hundreds of 
miles to fulfill the required tests and procedures. This can be a 
significant hardship for applicants that results in some of them 
withdrawing from consideration.
    Finally, as CBP makes progress in filling new and vacant positions, 
they may need to expand their training classes. When experiencing a 
hiring surge in the past, the Federal Law Enforcement Training Center 
(FLETC) instituted a 6-day training program to accommodate the expanded 
classes. NTEU supports FLETC 6-day training, as long as the employees 
are paid for 6 days of training. NTEU is proud to represent FLETC 
employees that work and reside in various locations across the country.
                       accenture hiring contract
    To address some of these hiring concerns, on November 12, 2017, CBP 
awarded a $297 million contract with Accenture Federal Services ``to 
manage the full life cycle of the hiring process from job posting to 
processing'' of 7,500 CBP Border Patrol, Air and Marine, and OFO new 
hires.
    NTEU strongly believes that these Federal funds would be better 
spent actually hiring new CBP employees using CBP's in-house human 
resources department rather than contracting out this work to a 
private-sector consultant.
    After evaluating the first year of CBP's contract with Accenture, 
the DHS Office of Inspector General concluded that ``CBP may have paid 
Accenture for services and tools not provided.'' And, ``CBP risks 
wasting millions of taxpayer dollars on a hastily-approved contract 
that is not meeting its proposed performance expectations.'' (OIG-19-
13, page 6) NTEU applauds CBP for its decision to negotiate an end to 
this imprudent contract.
                        peer-to-peer recruitment
    Like most employers, CBP's best recruiters should be current CBP 
officers. Unfortunately, morale continues to suffer because of the 
recent shutdown, staffing shortages, possible pay freezes, and the 
administration's proposed cuts to retirement, health care, and workers' 
compensation programs. In addition to being overworked due to excessive 
overtime requirements, temporary duty assignments are a major drag on 
employees, especially those with families. Based on their experiences, 
many officers are reluctant to encourage their family members or 
friends to seek employment with CBP.
    NTEU strongly believes that addressing OFO hiring shortages by 
funding needed new CBP officer and agriculture specialist to fill the 
WSM staffing gap and by ending pay freezes, shutdowns, and proposals to 
cut employee benefits will improve morale and encourage peer-to-peer 
recruitment, which would be much more beneficial to CBP recruitment 
than spending millions on a private contractor.
                          cbp officer overtime
    Due to the on-going current staffing shortage of 3,500 CBP 
officers, CBP officers Nation-wide are working excessive overtime to 
maintain basic port staffing. Currently, CBP officer overtime pay is 
funded 100 percent through user fees and is statutorily capped at 
$45,000 per year. All CBP officers are aware that overtime assignments 
are an aspect of their jobs. However, long periods of overtime hours 
can severely disrupt an officer's family life, morale, and ultimately 
their job performance protecting our Nation.
    Because of the on-going staffing shortages, CBP officers can be 
required to regularly work overtime which results in individual 
officers hitting the overtime cap very early in the fiscal year. This 
leaves no overtime funding available for peak season travel, resulting 
in critical staffing shortages in the third and fourth quarter of the 
fiscal year that usually coincide with holiday travel at the ports.
    At many ports, CBP has granted overtime exemptions to over one-half 
of the workforce to allow managers to assign overtime to officers that 
have already reached the statutory overtime cap, but cap waivers only 
force CBP officers already working long daily shifts to continue 
working these shifts for more days. Officers are required to come in 
hours before their regular shifts, to stay an indeterminate number of 
hours after their shifts (on the same day) and are compelled to come in 
for more overtime hours on their regular days off as well. Both 
involuntary overtime--resulting in 12- to 16-hour shifts, day after 
day, for months on end--and involuntary work assignments far from home, 
significantly disrupt CBP officers' family life and erode morale. As 
NTEU has repeatedly stated, this is not a long-term solution for 
staffing shortages at the ports and has gone on for far too long.
      temporary duty assignments at southwest land ports of entry
    Due to CBP's on-going staffing shortage, since 2015, CBP has been 
diverting hundreds of CBP officers from other air, sea, and land ports 
to severely short-staffed Southwest land ports for 90-day temporary 
duty assignments (TDYs). Owing to the failure to fill CBP officer 
positions, neither the San Ysidro nor the Nogales land ports can safely 
function without these TDYs. Last summer, CBP asked for volunteers for 
TDYs because, according to CBP, the San Diego and Tucson Field Office 
were experiencing critical shortages of front-line personnel, further 
stating that ``These long-term staffing shortfalls continue to stretch 
the limits of operational, enforcement, and training capabilities at 
the ports of entry.''
    In November 2018, CBP began a new TDY program to support 
``Operation Secure Line--Mobile Field Force (MFF) Plan 
Implementation.'' This TDY again diverts CBP officers with MFF site 
security and crowd control training from other short-staffed ports of 
entry to sustain enforcement level posture at San Ysidro and Nogales to 
manage the influx of asylum seekers at these ports. Also, as the focus 
of TDYs changed from passenger processing to site security the number 
of inadmissible travelers CBP is operationally capable to process is 
reduced.
    To end all these TDYs, CBP must fill existing CBP officer vacancies 
and fund the hiring of the additional CBP officers called for in CBP's 
own WSM. In the mean time, to encourage volunteers for these TDYs and 
avoid forced TDYs, NTEU suggests Congress ask CBP to include the 
following in its future TDY solicitations:
  <bullet> Increase the TDY pool by including non-bargaining unit 
        personnel such as qualified Headquarters staff, supervisors, 
        and other employees on special teams such as the Tactical 
        Terrorism Response Team and the Strategic Response Team, and by 
        including all officers who have graduated from FLETC and who 
        have received a sufficient amount of post-academy training;
  <bullet> Schedule TDYs in such a way that the supplemental staffing 
        through TDYs remains constant, so there is not a gap between 
        the departure of one round of TDYs and the arrival of the next, 
        and a surplus of volunteers for a TDY from one Field Office 
        should be allowed to make up for a shortage of volunteers in 
        another Field Office;
  <bullet> Establish an advertised cash award for individuals who 
        volunteer for a TDY and should offer available incentives such 
        as student loan repayments, overtime cap waivers, and home 
        leave; and
  <bullet> Allow approved leave during a TDY.
                    agriculture specialist staffing
    CBP employees also perform critically important agriculture 
inspections to prevent the entry of animal and plant pests or diseases 
at ports of entry. For years, NTEU has championed the CBP agriculture 
specialists' Agriculture Quality Inspection (AQI) mission within the 
agency and fought for increased staffing to fulfill that mission. The 
U.S. agriculture sector is a crucial component of the American economy, 
generating over $1 trillion in annual economic activity. According to 
the U.S. Department of Agriculture, foreign pests and diseases cost the 
American economy tens of billions of dollars annually.
    NTEU believes that staffing shortages and lack of mission priority 
for the critical work performed by CBP agriculture specialists, CBP 
agriculture detector dog teams and CBP technicians assigned to the 
ports is a continuing threat to the U.S. economy. At many ports, such 
as the port of Houston, there are not enough agriculture specialists to 
staff all shifts and CBP officers are backfilling for agriculture 
specialists.
    NTEU worked with Congress to include a provision in Pub. L. 114-
125, the Trade Facilitation and Trade Enforcement Act (TFTEA), which 
required CBP to submit, by the end of February 2017, a plan to create 
an agricultural specialist career track and a time line for fulfilling 
staffing deficits identified in the most recent agricultural resource 
allocation models (AgRAM). CBP's AgRAM showed a need for an additional 
721 front-line CBP agriculture specialists and supervisors to address 
current workloads through fiscal year 2018; however, even with the 2016 
increase in AQI user fees, CBP proposed to fund only 2,418 CBP 
agriculture specialist positions in fiscal year 2018, not the 3,149 
called for by the AgRAM.
    Because of CBP's key mission to protect the Nation's agriculture 
from pests and disease, NTEU urges the committee to authorize the 
hiring of these 721 CBP agriculture specialists to address this 
critical staffing shortage that threatens the U.S. agriculture sector.
                     cbp trade operations staffing
    CBP has a dual mission of safeguarding our Nation's borders and 
ports and regulating and facilitating international trade. CBP 
employees at the ports of entry are critical in protecting our Nation's 
economic growth and security. For every dollar invested in CBP trade 
personnel, we return $87 to the U.S. economy, either through lowering 
the costs of trade, ensuring a level playing field for domestic 
industry or by protecting innovative intellectual property. Since CBP 
was established in March 2003, however, there has been no increase in 
non-uniformed CBP trade enforcement and compliance personnel. 
Additionally, CBP trade operations staffing has fallen below the 
statutory floor set forth in the Homeland Security Act of 2002 and 
stipulated in the fiscal year 2017 CBP Resource Optimization Model for 
Trade Positions. NTEU strongly supports CBP funding 140 new hires at 
the CBP Office of Trade through direct appropriations to support TFTEA 
implementation.
                           cbp canine program
    The CBP Canine Program is also critical to CBP's mission. The 
primary goal of the CBP Canine Program is terrorist detection and 
apprehension. The working CBP canine team is one of the best tools 
available to detect and apprehend persons attempting entry into the 
country to organize, incite, and carry out acts of terrorism. The 
Canine Program's secondary goal is detection and seizure of controlled 
substances and other contraband that is often used to finance terrorist 
and/or criminal drug trafficking organizations. Currently, there are 
1,500 authorized canine teams and, as with all CBP resources, there is 
a shortage of OFO canine teams Nation-wide and many canine teams at 
international airports have been sent to Southwest Border ports to 
alleviate shortages there. NTEU supports Congress fully funding and 
staffing the CBP canine detection program.
                          opioid interdiction
    CBP OFO is the foremost DHS component tasked with stemming the 
Nation's opioid epidemic. In a report released on May 10, 2018, by the 
Senate Homeland Security and Governmental Affairs Committee Minority 
titled ``Combatting the Opioid Epidemic: Intercepting Illicit Opioids 
at Ports of Entry'', CBP officers at the ports of entry were found to 
``play a key role in stopping opioids and that CBP has significant 
shortages of Port Officers that may be compromising efforts to seize 
additional opioids before they can reach U.S. communities.''
    The smuggling of fentanyl and other opioids has increased markedly. 
According to the report, ``between 2013 and 2017, approximately 25,405 
pounds, or 88 percent of all opioids seized by CBP, were seized at 
ports of entry. The amount of fentanyl seized at the ports of entry 
increased by 159 percent from 459 pounds in 2016 to 1,189 pounds in 
2017.''
    The scourge of synthetic opioid addiction is felt in every State 
and is a threat to the Nation's economic security and well-being. The 
majority of fentanyl is manufactured in other countries such as China, 
and is smuggled primarily through the ports of entry along the 
Southwest Border and through international mail and express consignment 
carrier facilities (e.g. FedEx and UPS). As the Senate report states, 
CBP officers are, ``in the majority of cases, the last line of defense 
in preventing illicit opioids from entering the United States . . . 
CBP's current shortage of over 4,000 Port Officers is directly 
influencing operations and staffing these positions could increase 
CBP's ability to interdict opioids.'' The Nation's busiest land port of 
entry San Ysidro, along with the Tucson area land ports, account for 
``57 percent of all opioids seized by ports of entry, including 75 
percent of all fentanyl and 61 percent of all heroin seized.'' These 
two land ports are also the most critically understaffed.
    On January 26, 2019, CBP OFO made their biggest fentanyl seizure 
ever, capturing nearly 254 pounds of the deadly synthetic opioid at the 
Nogales port of entry. According to the DEA, just 2 milligrams of 
fentanyl is considered a lethal dose. From the January 26 seizure 
alone, it is estimated that CBP officers seized enough fentanyl to kill 
57 million people. That's more than the combined population of the 
States of Illinois, New York, and Pennsylvania. The street value for 
the fentanyl was over $102 million. CBP officers also seized an 
additional 2.2 pounds of fentanyl pills and a large cache of 
methamphetamine.
    Also, over the past 5 years, CBP has seen nearly 50 percent 
increase in express consignment shipments. In fiscal year CBP processed 
more than 76 million express bills; in fiscal year 2017, that number 
totaled 110 million. International mail shipments have increased by 
more than 200 percent over the past 5 years, from approximately 150 
million to more than 500 million. Yet, according to CBP, over the last 
3 years, there were only 181 CBP employees assigned to the 5 Postal 
Service International Service Centers and 208 CBP employees assigned to 
the Private Express Carrier Facilities.
    In the past year, the FedEx hub in Memphis processed 38 million 
imports and 48 million exports--equaling 86 million in total package 
volume. There are approximately 24 CBP officers screening all 86 
million shipments, and on average, about 15 CBP officers are working 
the main overnight FedEx ``sort'' shift. Considering the volume at the 
FedEx hub, NTEU has been told that the port requires a minimum of 60 
CBP officers to facilitate the flow of legitimate freight and ensure 
successful interdiction of these synthetic chemicals. NTEU urges 
Congress to provide CBP OFO with the critical funding it needs to 
support these efforts at the air, sea, and land ports of entry, as well 
as international postal and express consignment hubs.
    NTEU worked with Congress on the passage of Pub. L. 115-271, the 
Synthetics Trafficking and Overdose Prevention Act, or STOP Act. The 
new law requires CBP to provide additional CBP officers to express 
consignment and international mail facilities and requires CBP to 
report to Congress on an annual basis on the individuals and companies 
that violate the electronic advance data requirements of the Trade Act 
of 2002. Requiring CBP to annually report this useful information on 
violators and violator penalty assessments will enhance CBP's 
interdiction of prohibited items from entering the United States 
through express consignment operators.
                          cbp funding sources
    CBP collects Customs User Fees (CUFs), including those under the 
Consolidated Omnibus Budget Reconciliation Act of 1985 (COBRA), to 
recover certain costs incurred for processing air and sea passengers 
and various private and commercial land, sea, air, and rail carriers 
and shipments. The source of these user fees are commercial vessels, 
commercial vehicles, rail cars, private aircraft, private vessels, air 
passengers, sea passengers, cruise vessel passengers, dutiable mail, 
customs brokers, and barge/bulk carriers.
    COBRA fees are deposited into the Customs User Fee Account and are 
designated by statute to pay for services provided to the user, such as 
100 percent of inspectional overtime for passenger and commercial 
vehicle inspection during overtime shift hours. Of the 24,576 CBP 
officers currently funded, Customs User Fees (CUFs) fund 3,825 full-
time equivalent (FTEs) CBP officers. Further, Immigration Inspection 
User Fees (IUF) fund 4,179 CBPO FTEs. CUF and IUF user fees fund 8,004 
CBPO FTEs or one-third of the entire CBP workforce at the ports of 
entry.
    NTEU strongly opposes the diversion of CUFs. Any increases to the 
CUF Account should be properly used for much-needed CBP staffing and 
not diverted to unrelated projects. Unfortunately, while section 52202 
of the FAST ACT indexed CUFs to inflation, it diverted this funding 
from CBP to pay for unrelated infrastructure projects. Indexing COBRA 
CUFs to inflation would have raised $1.4 billion over 10 years--a 
potential $140 million per year funding stream to help pay for the 
hiring of additional CBP officers to perform CBP's border security, law 
enforcement, and trade and travel facilitation missions. Diverting 
these funds has cost CBP funding to hire over 900 new CBP officers per 
year since the FAST Act went into effect. These new hires would have 
significantly alleviated the current CBP officer staffing shortage.
    In order to find alternative sources of funding to address serious 
staffing shortages, CBP received authorization for and has entered into 
Reimbursable Service Agreements (RSAs) with the private sector, as well 
as with State and local governmental entities. These stakeholders, who 
are already paying CUFs and IUFs for CBP OFO employee positions and 
overtime, reimburse CBP for additional inspection services, including 
overtime pay and the hiring of new CBP officer and agriculture 
specialist personnel that in the past have been paid for entirely by 
user fees or appropriated funding. According to CBP, since the program 
began in 2013, CBP has entered into agreements with over 149 
stakeholders covering 111 U.S. ports of entry, providing more than 
467,000 additional processing hours for incoming commercial and cargo 
traffic.
    NTEU believes that the RSA program is a Band-Aid approach and 
cannot replace the need for Congress to either appropriate new funding 
or authorize an increase in customs and immigration user fees to 
adequately address CBP staffing needs at the ports.
    RSAs simply cannot replace the need for an increase in CBP 
appropriated or user fee funding--and make CBP a ``pay-to-play'' 
agency. NTEU also remains concerned with CBP's new Preclearance 
expansion program that also relies heavily on ``pay-to-play.'' Further, 
NTEU believes that the use of RSAs to fund CBP staffing shortages 
raises significant equity issues between larger and/or wealthier ports 
and smaller ports.
              ratio of supervisors to front-line personnel
    Another concern is that CBP continues to be a top-heavy management 
organization. Since its creation, the number of new managers has 
increased at a much higher rate than the number of new front-line CBP 
hires. CBP's own fiscal year 2015 end-of-year workforce profile (dated 
10/3/15), showed that the supervisor to front-line employee ratio was 1 
to 5.6 for the total CBP workforce, 1 to 5.7 for CBP officers and 1 to 
6.6 for agriculture specialists. Prior to 2003, the supervisor to 
front-line ratio was closer to 1 supervisor to 12. It is also NTEU's 
understanding that nearly 1,000 CBP officers are serving either at CBP 
headquarters or non-Office of Field Operations locations. This means 
that nearly 4,000 CBP officers are serving in supervisory positions.
    The tremendous increase in CBP managers and supervisors has come at 
the expense of National security preparedness and front-line positions. 
Also, these highly-paid management positions are straining the CBP 
budget. CBP's top-heavy management structure contributes to the lack of 
adequate staffing at the ports, excessive overtime schedules, and 
flagging morale among the rank and file.
                          nteu recommendations
    To address CBP's workforce challenges, it is clearly in the 
Nation's economic and security interest for Congress to authorize and 
fund an increase in the number of CBP officers, CBP agriculture 
specialists, and other CBP employees.
    In order to achieve the long-term goal of securing the proper 
staffing at CBP, NTEU recommends that Congress take the following 
actions:
  <bullet> Fill the 1,600 CBP officer-funded positions that are 
        currently vacant;
  <bullet> Fund an additional 1,900 new CBP officers;
  <bullet> Address the polygraph process to mitigate excessive (60 
        percent) applicant polygraph failures;
  <bullet> Fund 721 new CBP agriculture specialists hires;
  <bullet> Fully fund and utilize recruitment and retention awards, and 
        other incentives; and
  <bullet> Restore cuts in mission support personnel that will free CBP 
        officers from performing administrative duties such as payroll 
        processing, data entry, and human resources to increase the 
        numbers available for trade and travel security and 
        facilitation.
    Congress should also redirect the increase in customs user fees in 
the FAST Act from offsetting transportation spending to its original 
purpose of providing funding for CBP officer staffing and overtime, and 
oppose any legislation to divert additional fees collected to other 
uses or projects.
    Shutdowns, pay freezes, and proposed cuts to benefits, rights, and 
protections do nothing to help with recruitment and retention of CBP 
officers. The employees I represent are frustrated and their morale is 
indeed low. These employees work hard and care deeply about their jobs 
and their country. These men and women are deserving of more staffing 
and resources to perform their jobs better and more efficiently.
    Thank you for the opportunity to speak today on their behalf. I am 
happy to answer any questions you may have.

    Ms. Torres Small. Thank you, Mr. Reardon.
    I thank all the witnesses for their testimony, and I will 
now recognize myself for 5 minutes of questioning.
    The first question goes to both of you. I would like to 
start with Mr. Reardon. What do you view as the biggest 
contributors to CBP's lengthy time-to-hire rates, especially in 
rural ports of entry like Columbus or Antelope Wells in the 
district I serve?
    Mr. Reardon. Well, I think that there are several things. I 
mean, we certainly talked about the actual hiring process, but 
I know you want to focus on some other things, so I will leave 
that to the side.
    I think that when you think about a potential candidate 
coming for a job, if they are going into a rural area and there 
aren't jobs, potential jobs for their spouses, I think that 
creates a difficult situation. A lack of housing. Lack of 
schools for their children. Areas for them to go grocery 
shopping and do other kinds of shopping. I think all of those 
contribute and make it difficult to find an interesting 
opportunity for people where they are willing to actually go 
and take those jobs.
    Ms. Torres Small. Mr. Goodman, did you see any specific 
challenges in recruiting people in hard-to-fill areas and rural 
areas?
    Mr. Goodman. Our approach in recruiting was to cast a wider 
net than CBP had originally to be able to reach potential 
candidates who we thought both had an affinity to working in 
the kind of remote locations and who also were most likely to 
be successful in the process.
    So we targeted first veterans, outdoor enthusiasts, but we 
approached job boards at universities, colleges, criminal 
justice programs in a range of more rural locations across the 
Southwest and the Midwest. To broaden diversity in the hiring 
pool we also included, for example, graduates of HBCUs.
    Ms. Torres Small. Thank you.
    Mr. Reardon, could you speak more specifically to some of 
the actions you started to mention in your testimony about the 
ways we can better retain CBP officers and get them to these 
hard-to-fill duty stations?
    Mr. Reardon. Certainly I could.
    I think that it is important to make sure that recruitment, 
retention, and relocation incentives are used. But I do also 
want to make certain that if we are in a situation where a 
recruitment incentive is being used for somebody to come in as 
a new hire, what you don't want to do, I don't believe, is have 
that situation then a long-time employee earning less money.
    So if you are going to use recruitment incentives, I think 
it is also important to use in concert with that retention 
incentives. So those are important things.
    One other thing that I would add is I have got to believe 
that there are other organizations out there, perhaps the 
United States military would be a good model, where you have 
folks who are going to be in remote locations or in rural 
locations, and they have got to have ways to provide 
opportunities for families so that people feel like they are a 
part of something.
    I would also offer one last thing about that. You know, if 
we are going to suggest that it is important to protect the 
security of our country, and I think everyone in this room and 
across this country would agree, then we have got to make 
certain that we are providing the employees, the number of 
employees that we need to actually do that, not just give lip 
service to it.
    I have been testifying now for a couple of years, several 
years, on this very same issue, and it seems as though the 
number continues to remain at about 3,500. We have got to get 
these people in.
    Because what we are doing is we are putting--because the 
work is out there, and it has got to happen--and so what we are 
doing is we are putting folks in situations, our employees, CBP 
officers, in situations where they are having to work 16-hour 
days, days on end. It is a problem for the family, it is a 
problem for morale, it is a problem for their health, both 
physical and emotional, and we have got to do--and it doesn't 
help in terms of protecting our country.
    Ms. Torres Small. Thank you, Mr. Reardon.
    Just in the last 43 seconds, Mr. Goodman, could you speak 
to what you think CBP and Accenture could have done to best 
improve the processes based on the lessons learned?
    Mr. Goodman. Well, first, I think we made a number of 
changes that are improving the process that are helpful. I 
think the introduction of a digital recruiting platform that 
enables us to better target, connect, build a group of 
applicants is a significant advantage and allows us to do 
analytics on that recruiting pool to be able to help us figure 
out----
    Ms. Torres Small. What were your biggest mistakes?
    Mr. Goodman. I think the most significant challenge we face 
in this process was in, as Congressman Crenshaw discussed in 
his opening statement, was in the area of polygraphy. That is 
the biggest obstacle in the process, and it is one that we are 
still working with CBP to figure out how best to navigate.
    Ms. Torres Small. Thank you, Mr. Goodman.
    Now I recognize the gentleman from Texas, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Chairwoman.
    Let's expand on that. Let's expand on the polygraph, since 
you just mentioned it. Do you have anything to add as far as 
lessons learned or ways to improve that process in particular? 
I just want to continue that line of questioning.
    Mr. Goodman. Sure. I think the particular challenge that we 
face was in bringing on polygraphers who could be approved to 
do work at CBP, because in addition to requiring NCCA 
certification and having Federal experience, there are a range 
of training, monitoring, testing requirements that CBP uses 
that makes it significantly harder to bring on new 
polygraphers.
    That is the major chokepoint in the hiring process in terms 
of determining the throughput you can get from the number of 
applicants. I think those are the set of issues that I think 
CBP is wrestling with now for the broader applicant pool, apart 
from the veterans and folks who already have TS/SCI clearances, 
as you all discussed.
    Mr. Crenshaw. Right, because you can have a TS/SCI 
clearance and a perfect record, it is no guarantee that you 
will pass a polygraph.
    On the $13.6 million that was spent on the Accenture 
contract, can you detail the work that was done by Accenture up 
to this point that is included in these start-up costs? I am 
asking you to go into a little more detail of what you have 
just previously described on the advertising campaign, the 
recruiting campaign that you all created. What exists right 
now, and how is it better than what we had before?
    Mr. Goodman. So the first thing that exists is a hiring and 
recruiting system that we have developed and that is now 
reusable for CBP to continue to use. It is that system that we 
have used to develop the talent network of 100,000 applicants 
with whom we can share information about CBP, what the day in 
the life of Air and Marine interdiction officers are, Border 
Patrol agents, et cetera.
    That is also the capability that we can then use to target 
the specific content that we developed in our digital marketing 
and advertising campaigns. So we develop new creative content 
to help attract different and new pools of candidates to the 
process. That material is also available.
    By the way, through the process, over the course of our 
contract, we have seen that the amount of marketing and 
advertising spent to deliver one applicant has decreased 
significantly. Now, I can't attribute all of that benefit to 
us, but I think what we did significantly helped.
    The third thing we did was to build an applicant care 
system so that, first, our call center and CBP can maintain 
contact with applicants throughout this long 300-day process 
and keep them warm, if you will, because that is a long time to 
wait to get a job. We built it for our use. CBP is deciding to 
use it now for its purpose with its recruiters starting next 
month.
    Then we also developed two separate call centers to be able 
to answer questions in the application process so that people 
can fill out their applications more rapidly and then answer 
questions and, again, help keep people warm along the way. That 
is the major area spent.
    Mr. Crenshaw. Thank you.
    Mr. Reardon, I will move to you. You were talking about 
morale, and you mentioned the military. In the military we have 
an MWR program. Is there anything similar to that for Border 
Patrol in some of these more remote locations?
    Mr. Reardon. Well, I don't represent employees on the 
Border Patrol, rather in the Office of Field Operations. But I 
am not aware of any programs like that, and that is why I am 
suggesting that it would probably be useful to look at 
something like that so that folks, they feel good about where 
they are working and what they are doing and that they feel 
confident about bringing their families into that environment. 
I think right now there is a major problem with that.
    Mr. Crenshaw. OK. Real quick, are there any details you 
would like to expound upon as far as incentivizing folks to go 
to some of these more remote locations and what these 
incentives would look like? Do you have any ideas that you 
would like to expound upon?
    Mr. Reardon. Well, I mean, I think certainly financial 
incentives, I mean, that is pretty clear, both to not only 
recruit them, but also in order to retain them. I think there 
are special pay opportunities that exist that could be looked 
into. You know, some of those places are very difficult to keep 
people, to get people to want to go there and to remain there. 
So special pay could be looked at, as well.
    Mr. Crenshaw. I think you would agree you also need to hire 
people who are willing to go to those places. It does take a 
certain type of person who wants to live in these areas.
    Would you be comfortable, given who you represent, would 
you be comfortable with the bill that we are talking about, 
which would waive polygraphs for law enforcement, military 
personnel with those previous clearances for the hiring 
process?
    Mr. Reardon. Absolutely. In fact, we have been supportive 
of that sort of legislation in the past. I mean, clearly, I 
would want to see the details, but in theory, based on what you 
are saying, we would be supportive of that, absolutely.
    Mr. Crenshaw. Thank you. Thank you both. I yield.
    Ms. Titus [presiding]. Thank you. I will now yield myself 5 
minutes to ask questions. Thank you.
    We were admonished a little while ago by one of my 
colleagues to give more love and respect to our brave men and 
women of the CBP, and I don't know anybody who doesn't have 
respect for them. But I would ask you, Mr. Reardon, wouldn't a 
better way to respect them been not to have shut down 
Government in a fit of pique just to deliver a campaign promise 
so that 27,000 of them would not have to go 2 pay periods 
without receiving a check?
    Mr. Reardon. Well, I will tell you, and I think you will 
see in the gallery I have a number of my members here, and they 
personally went through the 35-day Government shutdown. What I 
will tell you is that, in terms of treating our Federal 
employees--and here specifically we are talking about CBP--with 
dignity and respect, it would have been a whole lot more 
positive if they would not have been shut down.
    But this extends into also things like them having to face 
pay freezes, or pay increases that are below market, or attacks 
on their health insurance, or attacks on their retirement 
benefits. All those kinds of things play a very significant 
role here in whether or not people are going to be interested 
in working for the Federal Government, and also here 
specifically talking about CBP.
    We must make it an attractive place to work. The best 
recruiting mechanism that could exist is current CBP officers, 
current CBP employees, if they were treated with dignity and 
respect, if they were working in a place that they felt valued 
all the time, they would be your best recruiters, and we have 
got to get back to that. Because let me tell you, these folks 
are proud of the work that they do, and they are proud to work 
for this country.
    Ms. Titus. We are proud of them, and they are on the front 
lines every day protecting this country, and you are exactly 
right.
    I would just now ask about the contract that you all have. 
There is a big theme now about privatizing things in 
Government, run Government like a business, business can do it 
better than Government. Apparently that was kind-of the 
thinking when you got the $297 million contract last November. 
But you just mentioned in your testimony it was very favorable 
to taxpayers, and I would like to go back and look at that.
    You have challenged the IG report, but it seems to me that 
it wasn't all that favorable to taxpayers. I think how much 
money you have gotten is $20 million, and I know you said some 
of that was calculated for things that can be carried over, 
like a talent network and an applicant care system. But you 
have got 35 people, if I am right, who now have entered on 
duty. So you take 35, and you divide it into $20 million, now 
check my math, but I believe that is about a half a million 
dollars per hire.
    Now, do we really think that that is a good investment of 
taxpayer dollars? Is there really enough left over of what you 
created that makes a difference? I wonder if Mr. Reardon thinks 
that is going to help recruit more folks. What is it that you 
are left to do, since I don't think now you are really even 
part of the recruiting process?
    Maybe both of you could address that.
    Mr. Goodman. Sure. Congresswoman, I think you are 
conflating--your question conflates two separate parts of the 
contract.
    The first part of the contract was around application 
processing. For that part we were only paid when we hire. For 
that part, you are right, we have 36 who have entered on duty, 
56 have accepted job offers, and there are 4,000, 
approximately, who are in various stages of the process. More 
than 3,000 have already passed their medical and fitness exams, 
and more than----
    Ms. Titus. But listen, I realize there are two parts of the 
contract, and some of this you told me that was a bunch of 
bureaucratic jargon about creative content and care system and 
networks and stuff. I get that. But the fact is you have 
received about $20 million, and you have hired 35 people. How 
do you justify that?
    Mr. Goodman. The $19 million that we received was to build 
systems and capability that is able to be used by CBP on an on-
going process.
    Ms. Titus. Right. Well, what could you have possibly built 
for $19 million that is working so well that we still haven't 
been able to hire anybody?
    Mr. Goodman. We have built a recruiting system, a customer 
care system, two call centers, and lots of content.
    Ms. Titus. It costs $19 million?
    Mr. Goodman. Yes, ma'am. But that capability is what will 
enable CBP--it is the same capability that leading companies 
are using across America to improve their recruiting process.
    Ms. Titus. All right. Well, I am going to ask you to come 
back in 6 months and tell me how well that is working for $19 
million. Thank you.
    I guess my time is up, so we will now recognize Mr. Higgins 
from Louisiana.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Mr. Goodman, you are in a bit of a hot seat today, aren't 
you?
    Mr. Goodman. Happy to be here, Congressman.
    Mr. Higgins. Doing well. Your company properly competed for 
the bid that you received, the contract that you received, sir?
    Mr. Goodman. Yes.
    Mr. Higgins. Could you clarify some of these numbers? You 
stated, I believe, a fee of $40,000 per hire earlier. Did I 
record that right?
    Mr. Goodman. Right. That is an average number. It varies 
slightly across the three categories of hires from Air 
Interdiction officers----
    Mr. Higgins. I would like just to clarify for the American 
people that may tune into this hearing and for our own 
purposes, what is the ratio of applicants to hire? How many do 
you have to process in order to hire one agent?
    Mr. Goodman. When we began the process it was over 130 to 
1.
    Mr. Higgins. What is it now?
    Mr. Goodman. My understanding is it is approximately half 
that. In other words, we have been able to reduce--when I say 
``we,'' I mean CBP and we together have been able to reduce 
that number by approximately 50 percent.
    Mr. Higgins. OK. So 60 to 70 or somewhere in that range.
    The 130 to 1 was quite a challenge, an endeavor to face 
when you took this contract?
    Mr. Goodman. Yes. We bear all the costs for all the people 
who don't make it as part of our----
    Mr. Higgins. That was my next question. Who absorbs the 
expense of the application process for the non-hires?
    Mr. Goodman. That would be AFS. That is why this was a 
favorable structured contract for the Government.
    Mr. Higgins. I gave you the opportunity to answer these 
questions, sir, because as a Constitutional incentive and a 
rather loud protector of the people's treasury I don't 
necessarily agree with the bureaucracies and the way things 
move forward, but you have answered these questions I think 
honestly.
    I would like to ask Mr. Reardon, as a former police officer 
and a veteran myself, do you believe that the field commanders 
and supervisors could hire effectively if the hiring process 
was streamlined and they had the authority to hire and fill the 
slots that were under their command?
    Mr. Reardon. You know, I have not given much consideration 
to managers doing that sort of hiring.
    Mr. Higgins. You said managers, but we are talking about 
law enforcement professionals, correct?
    Mr. Reardon. Pardon me?
    Mr. Higgins. You used the term ``managers.''
    Mr. Reardon. I am referring to the management structure 
within CBP.
    Mr. Higgins. The admin.
    Mr. Reardon. Pardon me?
    Mr. Higgins. The administration.
    Mr. Reardon. The administration, right, management within 
CBP. You know, that is something that I would obviously have to 
look into to see whether or not that would work.
    Mr. Higgins. Generally speaking, in law enforcement from 
sea to shining sea across the 50 sovereign States, generally 
speaking, sheriffs and their senior staff, their command staff, 
chiefs of police, their command staff, they make their hiring 
decisions, and they manage to keep their slots filled quite 
effectively.
    So I realize this is a large Federal agency and dealing 
with the bureaucracy that is manifested over a generation here, 
it is much more complex. You are dealing with moving men and 
women and their families to very remote areas. But I am trying 
to connect some dots here.
    Does your company in your contract, do you communicate with 
the commanders in the field at the command and control sectors 
and the supervisors on the ground? Is there a communication 
process between the law enforcement professionals and your 
firm's process of hiring to fill the slots that the law 
enforcement professionals need filled?
    Mr. Goodman. Is the question directed to me, Congressman?
    Mr. Higgins. Yes, sir.
    Mr. Goodman. So most of our engagement has been with the 
key components of CBP that are themselves focused on hiring and 
that needed to adjudicate key steps along the way, whether it 
was adjudicate the medical exam or the results of a poly, et 
cetera, not actively engaged in the field. We did engage----
    Mr. Higgins. I am asking if you are in the process. 
Congratulations on streamlining the hiring process. We 
completely support that. We have to fill these slots. I am 
asking, are there communications between your hiring process, 
the people that handle that, and the commanders and supervisors 
in the field? I have 10 seconds remaining. Please answer.
    Mr. Goodman. Let me check with my team and get back to you, 
Congressman.
    Mr. Higgins. Madam Chairwoman, I yield.
    Ms. Torres Small [presiding]. Thank you.
    The Chair now recognizes for 5 minutes the gentleman from 
Texas, Mr. Taylor.
    Mr. Taylor. Thank you, Madam Chair.
    So a question for you, Mr. Goodman. There is a process, the 
EyeDetect system. What is that?
    Mr. Goodman. EyeDetect is a relatively new technology that 
uses eye movement to detect veracity. It is being piloted in a 
number of agencies, including in the intelligence community, as 
a precursor, if you will, for a poly to be able to determine 
whether a--to be able to prioritize candidates and make a 
better determination at a much lower cost.
    Mr. Taylor. Has this been used in the private sector?
    Mr. Goodman. I believe it is--it is really currently in 
pilot stage. It is a new and innovative technology.
    Mr. Taylor. So it is a very cutting-edge technology, not 
terribly proven. OK. Were you required to do that or did you--
was this your idea or was this CBP's idea?
    Mr. Goodman. So as part of our contract we were asked to 
bring forward innovative ideas that could potentially improve 
the process, and we piloted it at one job fair that we held in 
Texas really to understand how the system would work. It never 
became--we never brought it into production and used it to make 
determinations on candidates.
    Mr. Taylor. OK. So you didn't use it as part of your 12-
step process that I am looking at here?
    Mr. Goodman. No, we simply ran a pilot.
    Mr. Taylor. OK. So it didn't work? Is that a fair--I don't 
want to----
    Mr. Goodman. I wouldn't draw that conclusion. We ran one--
--
    Mr. Taylor. You didn't implement it?
    Mr. Goodman. We did not yet implement it, but we ran a 
pilot.
    Mr. Taylor. OK. So just one thing I wanted to understand, 
the beginning of this process, which you say is a 300-day 
process, can people begin that in their final year of college 
at the beginning so that when they graduate from college they 
get a job or do they have to begin after they get their degree? 
What is the timing? Does the person need to be completely 
qualified before they begin the process or do they begin the 
process ahead of time?
    Mr. Goodman. Congressman, I am going to need to check and 
get back with you on the specifics, but my understanding is 
that on filling out the entrance exam they need to be able to 
meet the requirements at the time where the entrance--the 
entrance application, that they need to fill out the 
application--they need to be qualified at the time they are 
filling out the application.
    Mr. Taylor. I am surprised you don't know that. That seems 
to be a pretty basic question.
    So one thing that companies do, and I have a defense 
contractor in my district, L3, and they are beginning to begin 
SCI exams at the beginning of the senior year in college so 
that by the time the person graduates they have got a job, 
which obviously is a lot easier to retain the person.
    I know that was my experience in the Marine Corps, right, 
so I went to the platoon leaders class in the summers and then 
I took commission when I graduated. So it just made it--you 
know, rather than beginning after I graduate.
    So that seems like a very straightforward step that we 
could do to make this a faster process and get more people.
    So one thing, I have to admit I am staggered at the 
numbers. So you are saying out of 100,000 people applying you 
are getting 34 people to take the job?
    Mr. Goodman. No, sir. What I noted is that as of December 
we had 36 who had entered on duty and 56 who had accepted.
    What I would note is, as we started the process, this was a 
300-day process, we began in March 2018. So we wouldn't have 
assumed that by December when the 56--the 36 or 56 number is in 
place, we would have had a large number through the process to 
begin with. What we saw was that we projected there would be a 
future problem because of the chokepoint created by polygraphs.
    Mr. Taylor. Let me ask this question. The $297 million 
contract, and I noticed it is a 1-year contract with 4 options, 
is the 297 for the first year and then each year thereafter or 
is that ultimately what could be a 5-year contract at 297?
    Mr. Goodman. That was the total contract value. That was 
the ceiling for the total contract over a 5-year----
    Mr. Taylor. The ceiling, assuming 4 extensions.
    Mr. Goodman. Four extensions and the decisions by CBP to 
contract for enough hires that would use the entire----
    Mr. Taylor. Final question for you. Did you have to--were 
you in competition to get this contract? Were there other 
people competing? Or was this a no-bid contract?
    Mr. Goodman. No, this was a competitive award.
    Mr. Taylor. This was a competitive award. Who were your 
competitors? Who also bid for this?
    Mr. Goodman. I don't know the answer to that, Congressman.
    Mr. Taylor. OK. Thank you.
    Madam Chair, I yield back.
    Ms. Torres Small. Thank you.
    At this point I think we are ready to conclude. So I thank 
the witnesses for their valuable testimony and the Members for 
their questions.
    The Members of the subcommittee may have additional 
questions for witnesses, and we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

Questions From Chairwoman Xochitl Torres Small for Benjamine ``Carry'' 
                                Huffman
    Question 1a. Ms. Gambler and Mr. Huffman, during our conversations 
I was glad to hear you speak on CBP's two hiring metrics--the time to 
hire and the overall applicant pass rate.
    What is the time to hire and overall applicant pass rate in the El 
Paso Sector during fiscal year 2017 and fiscal year 2018? Please 
provide the levels at each station in the sector.
    Answer. Response was not received at the time of publication.
    Question 1b. How do these numbers compare to the time to hire and 
overall applicant pass rate in the Rio Grande Valley Sector, Laredo 
Sector, San Diego Sector, Tucson Sector, and Yuma Sector?
    Answer. Response was not received at the time of publication.
    Question 2a. The Congressional district I serve is home to three 
ports of entry: Columbus, Antelope Wells, and Santa Teresa.
    Do these ports of entry have the resources and staff they need?
    Answer. Response was not received at the time of publication.
    Question 2b. Please provide current and target staffing levels for 
CBP officers at all 328 ports of entry. Which ports of entry are 
experiencing the greatest staffing shortfalls and highest attrition 
rates?
    Answer. Response was not received at the time of publication.
    Question 3a. Congress appropriated $58.7 million in fiscal year 
2019 to hire 600 new CBPOs at ports of entry.
    How does CBP plan to recruit and hire the 600 newly-funded CBPOs?
    Answer. Response was not received at the time of publication.
    Question 3b. Where will the CBPOs be deployed, and what process is 
CBP using to make this determination?
    Answer. Response was not received at the time of publication.
    Question 4a. GAO reported in GAO-18-487 that just 1 to 3 percent of 
law enforcement applicants complete CBP's 12-step hiring process and 
enter on duty.
    What is being done to better target qualified applicants who are 
likely to move successfully through the hiring process and accept a job 
offer if one is made?
    Answer. Response was not received at the time of publication.
    Question 4b. How is CBP using data analytics to evaluate its 
recruiting and marketing efforts? What has CBP found to be most 
effective?
    Answer. Response was not received at the time of publication.
    Question 5a. According to GAO, CBP does not have a systematic 
process for capturing and analyzing information on why law enforcement 
officers leave the agency.
    What steps has CBP taken to develop such a process?
    Answer. Response was not received at the time of publication.
    Question 5b. How does CBP plan to use this information to inform 
its future retention efforts?
    Answer. Response was not received at the time of publication.
    Question 6. GAO found that Border Patrol has consistently lost more 
agents through attrition than it has been able to gain through hiring. 
Fiscal year 2018 was the first year in at least 5 fiscal years that 
Border Patrol had a slight net staffing gain. However, Border Patrol is 
nearly 2,000 agents short of its target staffing goal and nearly 7,000 
agents short when accounting for the 5,000 additional agents mandated 
by Executive Order 13767.
    Please provide a detailed breakdown of current staffing levels, 
target staffing levels, and attrition rates at all Border Patrol 
stations. Which stations are experiencing the greatest staffing 
shortfalls and highest attrition rates?
    Answer. Response was not received at the time of publication.
    Question 7a. CBP has the authority to use a variety of financial 
incentives, including recruitment, retention, and relocation bonuses, 
to make hard-to-fill positions more attractive to CBPOs and BPAs. But, 
according to GAO, the agency has rarely exercised this authority.
    Why is CBP not making better use of recruitment, retention, and 
relocation bonuses to draw officers and agents to remote areas of the 
border?
    Answer. Response was not received at the time of publication.
    Question 7b. Please describe the process by which CBP proposes and 
approves financial incentives for existing employees and new hires.
    Answer. Response was not received at the time of publication.
    Question 7c. Please provide any guidance or policies that set forth 
the circumstances under which a financial incentive might be offered.
    Answer. Response was not received at the time of publication.
    Question 8a. In April 2017, OPM granted CBP direct-hire authority 
for law enforcement positions, allowing the agency to expedite its 
typical hiring process by eliminating competitive rating and ranking 
procedures and veterans' preference. This authority is set to expire in 
April 2019.
    How many CBPOs and BPAs have been hired through this authority 
since it was granted?
    Answer. Response was not received at the time of publication.
    Question 8b. Has CBP sought and/or received permission from OPM to 
extend direct-hiring authority past April 2019. Why or why not?
    Answer. Response was not received at the time of publication.
    Question 9. According to the Department of Homeland Security Office 
of Inspector General (DHS OIG), Border Patrol has not completed a 
satisfactory workforce staffing model as required by Congress in 2011.
    What, if any, effort is CBP making to develop and implement a 
Border Patrol staffing model?
    Answer. Response was not received at the time of publication.
  Questions From Chairman Bennie G. Thompson for Benjamine ``Carry'' 
                                Huffman
    Question 1a. In February 2019, CBP launched the ``Fast Track'' 
pilot program for applicants who agree to complete required hiring 
steps within set time lines. The goal of Fast Track is to reduce time 
to hire from roughly 300 days to 120 days for a certain subset of the 
applicant pool.
    Which applicants are eligible for Fast Track?
    Answer. Response was not received at the time of publication.
    Question 1b. Are there specific steps in the 12-step hiring process 
that are being revised or eliminated to reduce time to hire? If so, 
please explain.
    Answer. Response was not received at the time of publication.
    Question 1c. What actions is CBP taking to ensure applicant 
integrity through the Fast Track pilot program?
    Answer. Response was not received at the time of publication.
    Question 1d. How will CBP evaluate program effectiveness?
    Answer. Response was not received at the time of publication.
    Question 1e. How many CBPO and Border Patrol Agent (BPA) applicants 
have utilized the Fast Track pilot program to date?
    Answer. Response was not received at the time of publication.
    Question 2a. According to GAO, as of April 2018, CBP leadership was 
evaluating a request from Border Patrol for a 10 percent across-the-
board retention incentive for all Border Patrol agents at the GS-13 
level and below. Additionally, as of May 2018, CBP was reportedly 
planning to submit a request to the Office of Personnel Management 
(OPM) for a $10 per day remote duty location allowance for Border 
Patrol agents at 17 remote duty stations.
    What is the status of these requests?
    Answer. Response was not received at the time of publication.
    Question 2b. Please identify all Border Patrol stations where a 
remote duty location allowance has been approved.
    Answer. Response was not received at the time of publication.
    Question 2c. What analyses, if any, has CBP performed to evaluate 
the effectiveness of these incentives on recruitment, hiring, and 
retention? What are the results of these analyses?
    Answer. Response was not received at the time of publication.
    Question 2d. What, if any, other incentives are being considered to 
improve recruitment, hiring, and retention of Border Patrol agents in 
remote duty stations?
    Answer. Response was not received at the time of publication.
    Question 3a. GAO found that, in fiscal year 2017, OFO implemented a 
special salary rate for CBPOs at the Portal, North Dakota port of entry 
and that no CBPOs had departed the remote port since the special salary 
rate was implemented. OFO reportedly is considering additional special 
salary rates in hard-to-fill locations.
    Which specific ports of entry is CBP considering for additional 
special salary rates and/or other recruitment or retention incentives?
    Answer. Response was not received at the time of publication.
    Question 3b. What analyses has CBP performed to evaluate the 
effectiveness of these incentives, and what are the results of these 
analyses?
    Answer. Response was not received at the time of publication.
    Question 4a. Why did CBP determine that it needed to contract out 
its hiring responsibilities to accomplish its hiring goals?
    Did CBP not first seek to increase its internal capacity instead?
    Answer. Response was not received at the time of publication.
    Question 4b. Was there any discussion among decision makers to 
conduct a pilot to determine if the scope of the project was feasible 
before the Accenture Federal Services hiring contract was awarded?
    Answer. Response was not received at the time of publication.
    Question 5a. What modifications have been made to CBP's hiring 
contract with Accenture Federal Services since a partial stop work 
order was issued in December 2018?
    What specific activities will Accenture continue to perform?
    Answer. Response was not received at the time of publication.
    Question 5b. How will CBP ensure that it incorporates best 
practices learned from Accenture's work in the areas that Accenture 
will continue to contribute to, so that at the completion of the 
contract CBP will be better positioned to perform those activities in 
house?
    Answer. Response was not received at the time of publication.
    Question 5c. What specific activities is Accenture no longer 
responsible for?
    Answer. Response was not received at the time of publication.
    Question 5d. Please provide a copy of the modified contract.
    Answer. Response was not received at the time of publication.
    Question 6a. I understand that, in response to the partial stop 
work order, CBP is negotiating a settlement agreement with Accenture 
Federal Services.
    Please describe the process for reaching this settlement agreement.
    Answer. Response was not received at the time of publication.
    Question 6b. What are the terms of the settlement agreement?
    Answer. Response was not received at the time of publication.
    Question 6c. How will the pay structure of the contract change in 
response to Accenture's contractual obligations being scaled back?
    Answer. Response was not received at the time of publication.
    Question 6d. Please provide a copy of the settlement agreement.
    Answer. Response was not received at the time of publication.
  Questions From Honorable Dina Titus for Benjamine ``Carry'' Huffman
    Question 1a. Please provide demographic data, including data on the 
ethnicity/race, gender, and disability/veteran status of law 
enforcement personnel at Border Patrol, OFO, and CBP generally.
    Answer. Response was not received at the time of publication.
    Question 1b. What efforts, if any, is CBP making to foster a more 
diverse and inclusive workforce?
    Answer. Response was not received at the time of publication.
    Question 2a. Please provide current staffing levels and target 
staffing levels for McCarran International Airport.
    Answer. Response was not received at the time of publication.
    Question 2b. What efforts, if any, is CBP making to staff U.S. 
Customs at McCarran International Airport outside of normal operating 
hours?
    Answer. Response was not received at the time of publication.
   Questions From Chairwoman Xochitl Torres Small for Rebecca Gambler
    Question 1a. Ms. Gambler and Mr. Huffman, during our conversations 
I was glad to hear you speak on CBP's two hiring metrics--the time to 
hire and the overall applicant pass rate.
    What is the time to hire and overall applicant pass rate in the El 
Paso Sector during fiscal year 2017 and fiscal year 2018? Please 
provide the levels at each station in the sector.
    Answer. Response was not received at the time of publication.
    Question 1b. How do these numbers compare to the time to hire and 
overall applicant pass rate in the Rio Grande Valley Sector, Laredo 
Sector, San Diego Sector, Tucson Sector, and Yuma Sector?
    Answer. Response was not received at the time of publication.
       Questions From Honorable Clay Higgins for Rodolfo Karisch
    Question 1. Chief Karisch, there are a lot of numbers we keep track 
of when assessing operational control of our borders. The ones I most 
frequently hear about are ``apprehensions'' between the ports of entry 
and ``inadmissibles'' at the ports of entry. However, it is safe to say 
that we do not catch a lot of what or who crosses our border illegally.
    How do you quantify what we are missing?
    Answer. Response was not received at the time of publication.
    Question 2. What percent of people who enter illegally are we not 
apprehending?
    Answer. Response was not received at the time of publication.
    Question 3. What percent of drugs that enter illegally are we not 
seizing?
    Answer. Response was not received at the time of publication.
    Question 4. How accurate would you say your ``got away'' statistics 
are?
    Answer. Response was not received at the time of publication.
     Questions From Chairman Bennie G. Thompson for John B. Goodman
    Question 1. Please describe in detail the challenges Accenture 
experienced recruiting and hiring personnel for CBP.
    Answer. Response was not received at the time of publication.
    Question 2a. What modifications have been made to CBP's hiring 
contract with Accenture Federal Services since a partial stop work 
order was issued in December 2018?
    What specific activities will Accenture continue to perform?
    Answer. Response was not received at the time of publication.
    Question 2b. What specific activities is Accenture no longer 
responsible for?
    Answer. Response was not received at the time of publication.
    Question 3a. I understand that, in response to the partial stop 
work order, CBP is negotiating a settlement agreement with Accenture 
Federal Services.
    Please describe the process for reaching this settlement agreement.
    Answer. Response was not received at the time of publication.
    Question 3b. What are the terms of the settlement agreement?
    Answer. Response was not received at the time of publication.
    Question 3c. How will the pay structure of the contract change in 
response to Accenture's contractual obligations being scaled back?
    Answer. Response was not received at the time of publication.
    Question 3d. Please provide a copy of the settlement agreement.
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
